No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
EVELYN SINENENG-SMITH
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ERIC J. FEIGIN
ZACHARY D. TRIPP
Assistants to the Solicitor
General
ANDREW W. LAING
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether the federal criminal prohibition against encouraging or inducing illegal immigration for commercial advantage or private financial gain, in violation of
8 U.S.C. 1324(a)(1)(A)(iv) and (B)(i), is facially unconstitutional.

(I)

RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
United States v. Sineneng-Smith, No. 10-cr-414
(Dec. 17, 2015)
United States Court of Appeals (9th Cir.):
United States v. Sineneng-Smith, No. 15-10614
(Dec. 4, 2018)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Constitutional and statutory provisions involved...................... 2
Statement ...................................................................................... 3
Reasons for granting the petition ............................................... 7
A. The Ninth Circuit wrongly invalidated an
important federal statute on its face ............................ 8
1.
Congress’s ban on encouraging or inducing
unlawful immigration activity for financial
gain is facially constitutional ............................... 9
a.
The crime for which respondent
was convicted is a prohibition on
facilitating or soliciting an alien’s
unlawful entry or residence for
financial gain ............................................... 9
b.
The crime at issue does not cover
a substantial amount of unprotected
speech ........................................................ 15
2.
The Ninth Circuit erred in viewing this
case to involve a substantially overbroad
restriction of protected speech ......................... 19
B. The question presented warrants this Court’s
review ............................................................................ 24
Conclusion ................................................................................... 26
Appendix A — Court of appeals opinion (Dec. 4, 2018) ........ 1a
Appendix B — District court order granting in part
and denying in part defendant Evelyn
Sineneng-Smith’s motion for acquittal
and denying defendant’s motion for a
new trial (Dec. 23, 2013) .......................... 40a

(III)

IV
Table of Contents—Continued

Page

Appendix C — District court order denying motion
to dismiss counts one through three,
nine, ten, and the forfeiture allegations
of the superseding indictment
(Oct. 12, 2011) ........................................... 68a
Appendix D — Court of appeals order denying rehearing
(Feb. 12, 2019) .......................................... 77a
Appendix E — Judgment in a criminal case
(Dec. 17, 2015) ........................................... 78a
Appendix F — Superseding Indictment
(July 14, 2010) ........................................... 94a
Appendix G — Constitutional and statutory
provisions ................................................ 111a
TABLE OF AUTHORITIES

Cases:
Apprendi v. New Jersey, 530 U.S. 466 (2000)..................... 19
Arizona v. United States, 567 U.S. 387 (2012) ................... 13
Blodgett v. Holden, 275 U.S. 142 (1927) .............................. 25
Cox v. Louisiana, 379 U.S. 559 (1965)........................... 17, 22
DelRio-Mocci v. Connolly Props. Inc., 672 F.3d 241
(3d Cir.), cert. denied, 568 U.S. 821 (2012) ................... 7, 25
Department of Transp. v. Association of Am. R.Rs.,
135 S. Ct. 1225 (2015) ......................................................... 24
Elonis v. United States, 135 S. Ct. 2001 (2015) .................. 11
Giboney v. Empire Storage & Ice Co., 336 U.S. 490
(1949) .............................................................................. 13, 14
Holder v. Humanitarian Law Project, 561 U.S. 1
(2010) .................................................................................... 24
INS v. St. Cyr, 533 U.S. 289 (2001) ...................................... 24
Iancu v. Brunetti, No. 18-302 (June 24, 2019) .................... 24

V
Cases—Continued:

Page

International Bhd. of Elec. Workers v. NLRB,
341 U.S. 694 (1951).................................................. 14, 17, 23
Jennings v. Rodriguez, 138 S. Ct. 830 (2018) ..................... 24
Lees v. United States, 150 U.S. 476 (1893) .................... 14, 15
Los Angeles Police Dep’t v. United Reporting Publ’g
Corp., 528 U.S. 32 (1999) ................................................ 8, 19
Matal v. Tam, 137 S. Ct. 1744 (2017)................................... 24
New York v. Ferber, 458 U.S. 747 (1982)............................... 8
Pittsburgh Press Co. v. Pittsburgh Comm’n on
Human Relations, 413 U.S. 376 (1973) ............................ 14
Rosemond v. United States, 572 U.S. 65 (2014) ................. 11
Rostker v. Goldberg, 453 U.S. 57 (1981) .............................. 24
Skilling v. United States, 561 U.S. 358 (2010) .............. 16, 24
United States v. Alvarez, 567 U.S. 709 (2012) ........ 21, 22, 24
United States v. Comstock, 560 U.S. 126 (2010) ................. 24
United States v. Davis, No. 18-431 (June 24, 2019) ........... 24
United States v. He, 245 F.3d 954 (7th Cir.),
cert. denied, 534 U.S. 966 (2001) ....................................... 11
United States v. Kebodeaux, 570 U.S. 387 (2013) .............. 24
United States v. Nguyen, 73 F.3d 887 (9th Cir. 1995) ....... 11
United States v. Stevens, 559 U.S. 460 (2010) ........ 13, 22, 23
United States v. Tracy, 456 Fed. Appx. 267
(4th Cir. 2011), cert. denied, 566 U.S. 980 (2012)............. 16
United States v. Williams, 553 U.S. 285 (2008) ........ passim
United States v. Zayas-Morales, 685 F.2d 1272
(11th Cir. 1982) .................................................................... 11
United States ex rel. Attorney Gen. v. Delaware &
Hudson Co., 213 U.S. 366 (1909) ....................................... 24
Virginia v. Hicks, 539 U.S. 113 (2003) ................................ 15
Washington State Grange v. Washington State
Republican Party, 552 U.S. 442 (2008) .................. 8, 12, 22
Zivotofsky v. Kerry, 135 S. Ct. 2076 (2015) ......................... 24

VI
Constitution and statutes:

Page

U.S. Const. Amend. I .......................................... passim, 111a
Free Speech Clause .......................................................... 5
Petition Clause .................................................................. 5
Act of Feb. 26, 1885, ch. 164, § 3, 23 Stat. 333..................... 14
Stolen Valor Act of 2005, Pub. L. No. 109-437,
120 Stat. 3266 (18 U.S.C. 704 (2006)) ................................ 21
18 U.S.C. 704(b) (2006) ................................................... 21
18 U.S.C. 704(c) (2006) .................................................... 21
8 U.S.C. 1101(a)(43)(N) ......................................................... 26
8 U.S.C. 1182(a)(6)(A)(i) ........................................................ 13
8 U.S.C. 1182(a)(6)(E)(i) ....................................................... 26
8 U.S.C. 1226(a) ..................................................................... 18
8 U.S.C. 1227(a)(1)(B) ........................................................... 13
8 U.S.C. 1227(a)(1)(E)(i) ....................................................... 26
8 U.S.C. 1324 .............................................................. 5, 6, 111a
8 U.S.C. 1324(a) ....................................................... 3, 18, 111a
8 U.S.C. 1324(a)(1) ................................................................. 17
8 U.S.C. 1324(a)(1)(A) ..................................2, 14, 23, 26, 111a
8 U.S.C. 1324(a)(1)(A)(i)-(iii) ................................................. 13
8 U.S.C. 1324(a)(1)(A)(iv) .................................... passim, 112a
8 U.S.C. 1324(a)(1)(A)(v)(II) ................................... 2, 23, 112a
8 U.S.C. 1324(a)(1)(B) ............................................. 3, 17, 112a
8 U.S.C. 1324(a)(1)(B)(i) ...................................... passim, 112a
8 U.S.C. 1324(a)(1)(B)(ii) ..................................... 3, 4, 19, 112a
8 U.S.C. 1325(a) ..................................................................... 12
8 U.S.C. 1326(a) ..................................................................... 12
18 U.S.C. 2 ........................................................................ 10, 12
18 U.S.C. 1341 ...................................................................... 3, 4
18 U.S.C. 2252A(a)(3)(B) ....................................................... 16
26 U.S.C. 7206(1) ..................................................................... 4

VII
Statutes—Continued:

Page

Ark. Code Ann. (2013):
§ 5-2-403(a)(1) .................................................................. 10
§ 5-2-403(b)(1) .................................................................. 10
Ga. Code Ann. § 16-2-20(b)(4) (2011) ................................... 11
Nev. Rev. Stat. Ann. § 195.020 (LexisNexis 2012) ............. 11
Tex. Penal Code Ann. § 7.02(a)(2) (West 2011) .................. 11
Utah Code Ann. § 76-2-202 (LexisNexis 2017) ................... 11
Wash. Rev. Code Ann. § 9A.08.020(3)(a)(i)
(West 2015) .......................................................................... 11
Wyo. Stat. Ann. § 6-1-201(a) (2017) ..................................... 11
Miscellaneous:
Black’s Law Dictionary (10th ed. 2014) ....................... 10, 22
Model Rules of Prof ’l Conduct 1.2(d) (2018) ....................... 18
Webster’s New International Dictionary
(2d ed. 1958)......................................................................... 10
Webster’s Third New International Dictionary
(2002) .................................................................................... 10

In the Supreme Court of the United States
No.
UNITED STATES OF AMERICA, PETITIONER
v.
EVELYN SINENENG-SMITH
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States
of America, respectfully petitions for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a-39a)
is reported at 910 F.3d 461. The opinion of the district
court (App., infra, 40a-67a) is not published in the Federal Supplement but is available at 2013 WL 6776188.
JURISDICTION

The judgment of the court of appeals was entered on
December 4, 2018. A petition for rehearing was denied
on February 12, 2019 (App., infra, 77a). On April 30,
2019, Justice Kagan extended the time within which to
file a petition for a writ of certiorari to and including
June 12, 2019. On May 31, 2019, Justice Kagan further
extended the time to and including July 12, 2019. The
(1)

2
jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

8 U.S.C. 1324(a)(1) provides in pertinent part:
(A)

Any person who—

(i) knowing that a person is an alien, brings
to or attempts to bring to the United States in any
manner whatsoever such person at a place other
than a designated port of entry * * * ;
(ii) knowing or in reckless disregard of the
fact that an alien has come to, entered, or remains
in the United States in violation of law, transports
* * * such alien within the United States * * * in
furtherance of such violation of law;
(iii) knowing or in reckless disregard of the
fact that an alien has come to, entered, or remains
in the United States in violation of law, conceals,
harbors, or shields from detection * * * such alien * * * ;
(iv) encourages or induces an alien to come to,
enter, or reside in the United States, knowing or
in reckless disregard of the fact that such coming
to, entry, or residence is or will be in violation of
law;
(v)(I) engages in any conspiracy to commit any
of the preceding acts, or
(II) aids or abets the commission of any of the
preceding acts,
shall be punished as provided in subparagraph (B).

3
(B) A person who violates subparagraph (A)
shall, for each alien in respect to whom such a violation occurs—
(i) in the case of * * * a violation of subparagraph (A)(ii), (iii), or (iv) in which the offense was
done for the purpose of commercial advantage or
private financial gain, be fined under title 18, imprisoned not more than 10 years, or both;
(ii) in the case of a violation of subparagraph
(A)(ii), (iii), (iv), or (v)(II), be fined under title 18,
imprisoned not more than 5 years, or both.
*****
Other pertinent constitutional and statutory provisions
are reprinted in the appendix to this petition. App., infra,
111a-117a.
STATEMENT

Following a jury trial in the United States District
Court for the Northern District of California, respondent was convicted on two counts of encouraging or inducing illegal immigration for financial gain, in violation
of 8 U.S.C. 1324(a)(1)(A)(iv) and (B)(i), and two counts of
mail fraud, in violation of 18 U.S.C. 1341. App., infra, 79a.
The district court sentenced respondent to 18 months of
imprisonment, to be followed by three years of supervised release. Id. at 81a, 83a. The court of appeals reversed the Section 1324(a) convictions, vacated the sentence, and remanded for resentencing. Id. at 1a-39a.
1. From 2001 to 2008, respondent profited from
tricking aliens who were unlawfully present in the
United States into believing that they could obtain
permanent-resident status if they paid her to file paperwork on their behalf. App., infra, 3a-4a. In particular,

4
her immigration-consulting business touted the supposed benefits of a discontinued Department of Labor
certification program to aliens who, as she knew, had
entered the United States too recently to be eligible for
such certification. See Gov’t C.A. Br. 4-7. She entered
into retainer agreements with her clients for the ostensible purpose of assisting them to obtain permanent residence through the program; charged each client $5900
to file a futile application with the Department of Labor;
and charged them an additional $900 to file a futile application with United States Citizenship and Immigration Services. App., infra, 42a. In doing so, she not only
took the aliens’ money under false pretenses, but also
induced them to remain in the United States. Id. at 3a4a; see id. at 4a (noting testimony from two of respondent’s clients that they would have left the United States
but for respondent’s fraud).
A federal grand jury indicted respondent on charges
that included three counts of encouraging or inducing
illegal immigration for financial gain, in violation of
8 U.S.C. 1324(a)(1)(A)(iv) and (B)(i), as well as three
counts of mail fraud, in violation of 18 U.S.C. 1341, and
two counts of filing false tax returns, in violation of
26 U.S.C. 7206(1). App., infra, 96a-101a. Section
1324(a)(1)(A)(iv) makes it unlawful to “encourage[] or
induce[] an alien to come to, enter, or reside in the
United States, knowing or in reckless disregard of the
fact that such coming to, entry, or residence is or will be
in violation of law.” 8 U.S.C. 1324(a)(1)(A)(iv). A violation of Section 1324(a)(1)(A)(iv) by itself carries a maximum term of imprisonment for five years. 8 U.S.C.
1324(a)(1)(B)(ii). Section 1324(a)(1)(B)(i) provides, however, that any person who “for the purpose of commercial advantage or private financial gain” violates Section

5
1324(a)(1)(A)(iv) shall be imprisoned for up to ten years.
8 U.S.C. 1324(a)(1)(B)(i).
Respondent pleaded guilty to the tax counts, and a
jury found her guilty on the mail-fraud and Section 1324
counts. See Gov’t C.A. Br. 4; App., infra, 4a. Respondent filed a motion for a judgment of acquittal arguing,
among other things, that (1) the evidence was insufficient to support the verdicts; and (2) Section 1324 was
unconstitutional as applied to her, under the Free
Speech and Petition Clauses of the First Amendment.
App., infra, 4a, 65a. Specifically, she argued that she
had a constitutional right to file applications for immigration relief on behalf of her clients, for financial gain,
notwithstanding that she knew the applications were
frivolous. See D. Ct. Doc. 214, at 20-23 (Oct. 7, 2013).
The district court deemed the evidence insufficient
on one of the Section 1324 counts and one of the mailfraud counts, but otherwise denied the motion for an acquittal. App., infra, 4a-5a; 40a-67a. In denying further
relief, the court found the evidence sufficient to prove
that respondent had “held out her services” to two aliens “as a vehicle to obtain a legal work permit and
green card,” fraudulently “suggesting to them that the
applications she would make on their behalf would allow
them to eventually obtain legal permanent residency in
the United States.” Id. at 48a-49a. And, incorporating
a prior order addressing a similar First Amendment
claim, the court explained that respondent was “not being prosecuted for making applications” to government
agencies, but instead for entering into retainer agreements with illegal aliens after fraudulently representing to them that her efforts could lead to legal permanent resident status. Id. at 75a; see id. at 65a.

6
2. Respondent appealed. Several months after oral
argument, the court of appeals sua sponte directed the
parties to submit additional briefing to address three issues, none of which respondent herself had raised, pertaining to the Section 1324 counts. C.A. Doc. 46, at 1-2
(Sept. 18, 2017). In particular, the court ordered the
parties to address (1) whether “the statute of conviction
is overbroad or likely overbroad under the First
Amendment” and, if so, “whether any permissible limiting construction would cure the First Amendment problem”; (2) whether the statute of conviction “is void
for vagueness or likely void for vagueness”; and
(3) whether it “contains an implicit mens rea element
which the Court should enunciate.” Ibid.
Following the additional briefing, and further oral
argument, the court of appeals relied on a First Amendment overbreadth theory to facially invalidate Section
1324(a)(1)(A)(iv) and set aside respondent’s Section
1324 convictions. App., infra, 1a-39a. The court focused
on Section 1324(a)(1)(A)(iv) alone, deeming the financialgain element in Section 1324(a)(1)(B)(i) “irrelevant” to
the validity of respondent’s convictions. Id. at 10a n.5.
The court took the view that Section 1324(a)(1)(A)(iv) defines “the predicate criminal act” without which respondent “could not have been convicted” and that “the
chilling effect of the ‘encourage or induce’ statute extends to anyone who engages in behavior covered by it,
whether for financial gain or not.” Ibid.
On the merits, the court of appeals refused to interpret Section 1324(a)(1)(A)(iv) in accord with the Third
Circuit, which had construed that provision to require
“an affirmative act that substantially encourages or induces an alien lacking lawful immigration status to
come to, enter, or reside in the United States where the

7
undocumented person otherwise might not have done
so.” App., infra, 22a (quoting DelRio-Mocci v. Connolly
Props. Inc., 672 F.3d 241, 249 (3d Cir.), cert. denied,
568 U.S. 821 (2012)) (emphasis omitted). The court instead maintained that the statute must be read as “susceptible to regular application to constitutionally protected speech,” such as a grandmother urging a grandson to overstay a visa, a political speech encouraging
civil disobedience of the immigration laws, or an attorney’s advice that a client remain in the country while
contesting removal. Id. at 34a-38a.
3. The court of appeals denied the government’s petition for rehearing en banc. App., infra, 77a.
REASONS FOR GRANTING THE PETITION

The Ninth Circuit erred in reaching out to facially
invalidate an important federal criminal law. The prohibitions of 8 U.S.C. 1324(a)(1)(A)(iv) and (B)(i) ensure
appropriate punishment for defendants who seek enrichment by incentivizing or procuring violations of the
immigration laws by aliens who illegally enter or remain
in the United States. In concluding that nobody can be
prosecuted under those provisions, the Ninth Circuit invented an argument on respondent’s behalf; ignored an
element of the crime for which respondent was convicted; and unnecessarily invited constitutional difficulties by giving unwarranted breadth to the remaining elements. Congress can constitutionally proscribe moneymaking schemes, like respondent’s, that are premised on causing or increasing unlawful entry or residence by particular aliens. The provisions here are primarily directed at conduct, not speech. To the extent
they even reach speech, they do so only incidentally by
prohibiting communications that foster unlawful activ-

8
ity by particular individuals, which have long been understood to be outside the scope of the First Amendment. Accordingly, even where a profit motive is not
required for conviction, the statute is not substantially
overbroad in relation to its plainly legitimate sweep.
Particularly in light of the circuit conflict that the decision below creates, this Court should grant certiorari
and reverse.
A. The Ninth Circuit Wrongly Invalidated An Important
Federal Statute On Its Face

The Ninth Circuit did not identify any First Amendment principle that would shield respondent’s own
conduct—duping illegally present aliens into remaining
in the country indefinitely so that they could pay her to
file frivolous visa applications—from criminal prosecution. It instead invoked an exception to the normal rules
favoring as-applied challenges and case-specific standing, see, e.g., Los Angeles Police Dep’t v. United Reporting Publ’g Corp., 528 U.S. 32, 39 (1999), to declare the
statutes of conviction, 8 U.S.C. 1324(a)(1)(A)(iv) and
(B)(i), substantially overbroad. But overbreadth can invalidate a criminal law only if “ ‘a substantial number’ of
its applications are unconstitutional, ‘judged in relation
to the statute’s plainly legitimate sweep.’ ” Washington
State Grange v. Washington State Republican Party,
552 U.S. 442, 449 n.6 (2008) (quoting New York v. Ferber,
458 U.S. 747, 769-771 (1982)). The Ninth Circuit’s unwarranted invocation of that doctrine here not only failed to
focus on the law as a whole, but invalidated it based on
hypotheticals that it does not encompass.

9
1. Congress’s ban on encouraging or inducing unlawful
immigration activity for financial gain is facially
constitutional

Respondent was convicted of violating provisions
that criminalize encouraging or inducing immigration
violations for profit. See 8 U.S.C. 1324(a)(1)(A)(iv) and
(B)(i). Those provisions define a crime that is in the nature of a ban on solicitation or aiding and abetting illegal
activity. The crime primarily prohibits conduct, not
speech. And to the extent it reaches speech, it does so
incidentally and only with respect to the type of illegality-enhancing communications that have long been recognized as unprotected. It does not criminalize pure advocacy, and it is not an overbroad restriction of speech.
a. The crime for which respondent was convicted is
a prohibition on facilitating or soliciting an alien’s
unlawful entry or residence for financial gain

Because “it is impossible to determine whether a
statute reaches too far without first knowing what the
statute covers,” the “first step in overbreadth analysis
is to construe the challenged statute.” United States v.
Williams, 553 U.S. 285, 293 (2008). The statute here is
a ban on facilitating or soliciting certain unlawful immigration activities for financial gain. As such, its scope
consists primarily, if not exclusively, of conduct or unprotected speech.
i. Respondent here was charged with the crime of
“encourag[ing] or induc[ing] an alien to come to, enter, or
reside in the United States, knowing or in reckless disregard of the fact that such coming to, entry, or residence
is or will be in violation of law,” 8 U.S.C. 1324(a)(1)(A)(iv),
“for the purpose of commercial advantage or private financial gain,” 8 U.S.C. 1324(a)(1)(B)(i). See App., infra,
96a-97a (superseding indictment); C.A. S.E.R. 24-25

10
( jury instructions). To convict a defendant of that crime,
the government must prove that she (1) knowingly
(2) encouraged or induced (3) a particular alien (4) to
enter or reside in the United States, (5) where such entry or residence is or will be unlawful, (6) knowing or in
reckless disregard of that unlawfulness, (7) with a specific intent to profit. The crime is accordingly limited to
certain acts of procuring or facilitating particular civil
or criminal violations of the immigration laws for profit.
The wording of the actus reus—“induc[ing] or encourag[ing]” an alien’s unlawful entry or remaining—
mirrors the language of accomplice liability and solicitation. For example, the general federal ban on acting
as an accomplice to a crime reaches, among others, a
person who “induces” an offense against the United
States. 18 U.S.C. 2 (“Whoever commits an offense
against the United States or aids, abets, counsels, commands, induces or procures its commission, is punishable as a principal.”). It also reaches a person who
“abets” a federal crime, ibid., the standard definition of
which includes “encourag[ing]” the crime’s commission.
See Black’s Law Dictionary 4 (10th ed. 2014) (defining
“abet” as “[t]o aid, encourage, or assist (someone), esp.
in the commission of a crime”) (emphasis added); Webster’s Third New International Dictionary 3 (2002) (defining “abet” as to “incite, encourage, instigate, or countenance,” as in “the commission of a crime”) (emphasis
added); Webster’s New International Dictionary 4
(2d ed. 1958) (same).
The use of the terms “encourage” and “induce” in
reference to contributory liability is not unique to federal law. Those words likewise appear in many state
statutes defining solicitation, aiding-and-abetting, and
other kinds of contributory liability. E.g., Ark. Code

11
Ann. § 5-2-403(a)(1) and (b)(1) (2013) (“[s]olicits, advises,
encourages, or coerces”); Ga. Code Ann. § 16-2-20(b)(4)
(2011) (“advises, encourages, hires, counsels, or procures”); Nev. Rev. Stat. Ann. § 195.020 (LexisNexis 2012)
(“directly or indirectly, counsels, encourages, hires, commands, induces or otherwise procures another to commit
a felony”); Tex. Penal Code Ann. § 7.02(a)(2) (West 2011)
(“solicits, encourages, directs, aids, or attempts to aid”);
Utah Code Ann. § 76-2-202 (LexisNexis 2017) (“solicits,
requests, commands, encourages, or intentionally aids”);
Wash. Rev. Code Ann. § 9A.08.020(3)(a)(i) (West 2015)
(“[s]olicits, commands, encourages, or requests”); Wyo.
Stat. Ann. § 6-1-201(a) (2017) (“counsels, encourages,
hires, commands, or procures”).
Although no mens rea language modifies the phrase
“encourages or induces,” 8 U.S.C. 1324(a)(1)(A)(iv),
those words are not naturally read to encompass accidental conduct. Courts have held that proof of general
criminal intent is required for the offenses in Section
1324(a)(1)(A). See United States v. He, 245 F.3d 954,
957-959 (7th Cir.) (affirming instruction that encouraging or inducing must be done “knowingly”), cert. denied,
534 U.S. 966 (2001); United States v. Nguyen, 73 F.3d
887, 890-893 (9th Cir. 1995) (requiring criminal intent
for “bringing” an alien to the United States); United
States v. Zayas-Morales, 685 F.2d 1272, 1276 (11th Cir.
1982) (“general criminal intent”); cf. Elonis v. United
States, 135 S. Ct. 2001, 2009 (2015) (“Although there are
exceptions,” the Court “generally ‘interpret[s] criminal
statutes to include broadly applicable scienter requirements, even where the statute by its terms does not contain them.’ ”) (citation omitted). A knowledge requirement, consistent with the standard mens rea requirement for accomplice liability, see Rosemond v. United

12
States, 572 U.S. 65, 76-77 (2014), accordingly applies to
Section 1324(a)(1)(A)(iv). *
The crime has other mens rea elements as well.
First, the alien’s entry or residence must not only
be unlawful, but the defendant must have knowledge
or reckless disregard of that specific fact. 8 U.S.C.
1324(a)(1)(A)(iv). And the aggravated offense at issue
here requires proof of a specific intent to profit. See
8 U.S.C. 1324(a)(1)(B)(i).
ii. Section 1324(a)(1)(A)(iv)’s “plainly legitimate
sweep,” Washington State Grange, 552 U.S. at 449 n.6
(citation omitted), encompasses a variety of non-speech
activity that stimulates illegal immigration for financial
gain. As the Ninth Circuit itself acknowledged, “[i]t is
indisputable that one can encourage or induce with
words, or deeds, or both.” App., infra, 15a.
Section 1324(a)(1)(A)(iv) fills an important gap in the
federal code, which otherwise contains no general criminal prohibition against facilitating an alien’s continued
unauthorized presence in the United States. Unlawful
entry can be a crime, see 8 U.S.C. 1325(a), 1326(a), and
aiding and abetting such conduct is therefore covered
by the generalized prohibition against assisting in criminal “offense[s],” 18 U.S.C. 2. “As a general rule,” however, “it is not a crime for a removable alien to remain
The jury instructions on the offense elements in this particular
case did not provide a specific mens rea modifying the phrase “encourage[d] or induce[d].” C.A. S.E.R. 24. But it would be inappropriate to rely on that case-specific fact as controlling the interpretation of the statute for purposes of a facial overbreadth challenge
that rests on the hypothetical application of the statute to other defendants. See Williams, 553 U.S. at 293 (noting requirement of correct construction of statute challenged on overbreadth grounds);
see also App., infra, 12a-14a (considering construction of mens rea
element without regard to jury instructions).
*

13
present in the United States.” Arizona v. United States,
567 U.S. 387, 407 (2012); see 8 U.S.C. 1182(a)(6)(A)(i),
1227(a)(1)(B). Aiding such continued presence is therefore not covered by the general aiding-and-abetting
statute. More limited prohibitions on transportation
or harboring, see 8 U.S.C. 1324(a)(1)(A)(i)-(iii), similarly do not encompass various forms of active assistance (like paying off smugglers) that a defendant might
provide.
Section 1324(a)(1)(A)(iv)’s applications to conduct,
rather than speech, present no First Amendment concerns. Even where applying Section 1324(a)(1)(A)(iv) to
particular forms of conduct might incidentally implicate
speech, “it has never been deemed an abridgment of
freedom of speech or press to make a course of conduct
illegal merely because the conduct was in part initiated,
evidenced, or carried out by means of language, either
spoken, written, or printed.” Giboney v. Empire Storage & Ice Co., 336 U.S. 490, 502 (1949).
iii. To the extent Section 1324(a)(1)(A)(iv) applies to
speech, it primarily, if not exclusively, applies to speech
that is “undeserving of First Amendment protection,”
Williams, 553 U.S. at 298, because it procures or facilitates unlawful activity that is itself unprotected, namely,
an alien unlawfully entering or remaining in the United
States. “Many long established criminal proscriptions
—such as laws against conspiracy, incitement, and
solicitation—criminalize speech (commercial or not) that
is intended to induce or commence illegal activities.” Ibid.
The constitutionality of such laws is well-established.
See ibid.; United States v. Stevens, 559 U.S. 460, 468-469
(2010) (including “speech integral to criminal conduct”
as a class of speech “ ‘which ha[s] never been thought to
raise any Constitutional problem’ ”) (citation omitted);

14
International Bhd. of Elec. Workers v. NLRB, 341 U.S.
694, 705 (1951) (concluding that it “carries no unconstitutional abridgment of free speech” for Congress to
prohibit “inducement or encouragement” of an unlawful
secondary boycott); Giboney, 336 U.S. at 498 (“[T]he
constitutional freedom for speech and press” does not
“extend[] its immunity to speech or writing used as an
integral part of conduct in violation of a valid criminal
statute.”).
A prohibition of soliciting or abetting such illegal
conduct, including through speech, is constitutional
irrespective of whether the law violated by the solicited
or abetted conduct is criminal or civil. See Pittsburgh
Press Co. v. Pittsburgh Comm’n on Human Relations,
413 U.S. 376, 388 (1973) (finding “no difference in principle” between civil and criminal violations in the context of a prohibition against aiding unlawful employment discrimination). Laws against incentivizing or
procuring civil immigration violations have a particularly long pedigree. This Court recognized more than a
century ago, albeit without discussing the First Amendment, that Congress’s power to define the immigration
laws goes hand-in-hand with its ability to prohibit a person from encouraging another to violate those laws. In
Lees v. United States, 150 U.S. 476 (1893), two men were
convicted under a predecessor to Section 1324(a)(1)(A),
which made it unlawful to “assist[], encourag[e] or solicit[] the migration or importation” of a contract laborer in violation of the civil immigration laws. Act of
Feb. 26, 1885, ch. 164, § 3, 23 Stat. 333. This Court rejected the argument that Congress lacked the power to
define such a crime, explaining that because Congress
has “the power to exclude” the contract laborers at issue, it “has a right to make that exclusion effective by

15
punishing those who assist in introducing, or attempting to introduce, aliens in violation of its prohibition.”
Lees, 150 U.S. at 480. That is what the modern Section
1324(a)(1)(A)(iv) does.
b. The crime at issue does not cover a substantial
amount of unprotected speech

This Court has “insisted” that, “before applying the
‘strong medicine’ of overbreadth invalidation,” a “law’s
application to protected speech be ‘substantial,’ ” both
in “an absolute sense” and “relative to the scope of the
law’s plainly legitimate applications.” Virginia v. Hicks,
539 U.S. 113, 119-120 (2003) (citation omitted). The crime
at issue here falls well short of that standard. The
Ninth Circuit concluded that respondent was convicted
of a crime with an overbroad definition based on a concern that the definition encompasses “abstract advocacy.” App., infra, 36a. But any applications of the statute to abstract advocacy are insignificant as both an absolute and a relative matter.
The crime’s financial-gain element alone eliminates
most, if not all, of the Ninth Circuit’s concerns. That
element requires proof that the defendant committed
the crime “for the purpose of commercial advantage or
private financial gain,” 8 U.S.C. 1324(a)(1)(B)(i), which
is not a normal feature of “abstract advocacy.” The element would exclude, for example, the Ninth Circuit’s
hypotheticals about “the simple words—spoken to a
son, a wife, a parent, a friend, a neighbor, a coworker, a
student, a client—‘I encourage you to stay here,’ ” as
well as a “speech addressed to a gathered crowd, or directed at undocumented individuals on social media, in
which the speaker said something along the lines of ‘I
encourage all you folks out there without legal status to

16
stay in the U.S.!’ ” App., infra, 3a, 37a (footnotes omitted); see also id. at 35a (similar hypothetical of a grandmother telling her grandson whose visa has expired “I
encourage you to stay”). None of the speech in those
examples is for the purpose of private financial gain.
In any event, even without the financial-gain element, Section 1324(a)(1)(A)(iv) would not apply to a substantial amount of protected speech. See United States
v. Tracy, 456 Fed. Appx. 267, 272 (4th Cir. 2011) (per
curiam) (upholding Section 1324(a)(1)(A)(iv) under the
rule that speech that “constitutes criminal aiding and
abetting does not enjoy the protection of the First
Amendment”) (citation omitted), cert. denied, 566 U.S.
980 (2012). Solicitation and complicity laws like Section
1324(a)(1)(A)(iv) are ordinarily understood not to prohibit abstract advocacy of illegality, even when the language of those prohibitions might in other contexts encompass such advocacy. For example, in Williams, this
Court interpreted a federal law that made it unlawful to
“advertise[], promote[], present[], distribute[], or solicit[]” child pornography. 18 U.S.C. 2252A(a)(3)(B).
Although the verbs “solicit[]” and “promote[]” can be
understood capaciously, the Court concluded that they
did not “prohibit advocacy of child pornography, but
only offers to provide or requests to obtain it.” Williams, 553 U.S. at 299. The Court thus determined that
the statute did not reach statements like “I believe that
child pornography should be legal” or “I encourage you
to obtain child pornography.” Id. at 300.
Section 1324(a)(1)(A)(iv) contains no indication that
Congress intended to radically break from that mold
and to prohibit mere advocacy, notwithstanding the
constitutional problems that such a prohibition would
invite. See Skilling v. United States, 561 U.S. 358, 403

17
(2010) (“[O]ur case law’s current * * * requires us, if
we can, to construe, not condemn, Congress’s enactments.”). The operative language—“encourages or
induces”—uses the same verbs that this Court has itself
used to describe prohibitions that are constitutional.
See Williams, 553 U.S. at 298 (describing restriction on
speech “intended to induce or commence illegal activities” as constitutional) (emphasis added); Cox v. Louisiana, 379 U.S. 559, 563 (1965) (“A man may be punished for encouraging the commission of a crime.”) (emphasis added); International Bhd. of Elec. Workers,
341 U.S. at 705 (“The prohibition of inducement or encouragement of secondary pressure * * * carries no
unconstitutional abridgment of free speech.”) (emphasis added). And the statutory requirement that any inducement or encouragement be specific to “an alien,”
with penalties “for each alien in respect to whom * * *
a violation occurs,” 8 U.S.C. 1324(a)(1)(A)(iv) and (B)
(emphases added), reinforces that an abstract statement of policy views will not suffice for conviction. See,
e.g., App., infra, 97a (indictment identifying specific individual aliens who respondent encouraged or induced
to unlawfully remain in the United States).
Just as a teenager does not aid, abet, or solicit marijuana possession merely by saying to a friend, “I encourage you to try smoking pot,” a grandmother thus
does not violate Section 1324(a)(1)(A)(iv) merely by saying to her grandson whose visa has expired, “I encourage you to stay.” App., infra, 35a. Similarly, just as a
community organizer does not aid, abet, or solicit drug
crimes merely by making a speech supporting changes
in the drug laws and saying, “I encourage all you folks
out there to smoke marijuana,” a community organizer
does not violate Section 1324(a)(1) merely by making

18
“[a] speech addressed to a gathered crowd” or posts on
social media supporting changes in immigration law and
saying, “ ‘I encourage all you folks out there without legal status to stay in the U.S.,’ ” id. at 37a. And just as a
lawyer does not aid, abet, or solicit a crime if she tells a
client in good faith that a particular type of illegal conduct is rarely prosecuted, a lawyer similarly does not
violate Section 1324(a)(1)(A)(iv) if she tells a client who
is present unlawfully that she is unlikely to be removed.
Cf. Model Rules of Prof ’l Conduct 1.2(d) (2018) (“A lawyer shall not counsel a client to engage, or assist a client,
in conduct that the lawyer knows is criminal or fraudulent, but a lawyer may discuss the legal consequences of
any proposed course of conduct with a client.”).
Good-faith legal or other professional advice also is
typically excluded for the additional reason that it often
would not involve “residence * * * in violation of law,”
8 U.S.C. 1324(a)(1)(A)(iv), for an alien to remain in the
United States while a lawyer or other professional is engaged in bona fide efforts to obtain relief. For example,
if an alien has been put into removal proceedings but
released on bond under 8 U.S.C. 1226(a), it would be
lawful for an attorney to advise the client that “she
should remain in the country while contesting removal,”
App., infra, 38a, because the government has just allowed the client to live here in the meantime by releasing her on bond. That interim presence countenanced
by the government is not fairly understood to be residence “in violation of law,” within the meaning of Section 1324(a).

19
2. The Ninth Circuit erred in viewing this case to involve
a substantially overbroad restriction of protected
speech

The Ninth Circuit’s overbreadth analysis is mistaken
in multiple ways. It misidentifies the law at issue, and
it misinterprets the scope of the law it identifies. Each
error alone would warrant reversal.
a. The Ninth Circuit did not suggest that the crime
at issue here is overbroad if it requires proof of a financial motivation. It instead treated the financial-gain requirement as “irrelevant” to the overbreadth analysis.
App., infra, 10a n.5. It had no license to do so.
Although Section 1324(a)(1)(A)(iv) itself defines a
complete criminal offense, the statutory maximum term
of imprisonment increases from five years to ten years
if that conduct is committed with a purpose of financial
gain. See 8 U.S.C. 1324(a)(1)(B)(i) and (ii). The grand
jury was accordingly required to charge that fact in the
indictment, and the petit jury was required to find that
the government had proved it beyond a reasonable
doubt. See Apprendi v. New Jersey, 530 U.S. 466, 490
(2000). The Ninth Circuit’s blinkered focus on Section
1324(a)(1)(A)(iv) as “the predicate criminal act” without
which respondent “could not have been convicted,”
App., infra, 10a n.5, thus fails to fully account for the
actual nature of the conviction.
The Ninth Circuit’s approach represents an unwarranted expansion of the overbreadth doctrine. This
Court has adopted a restrained approach to the overbreadth doctrine, in order to “vigorously enforce[]” the
limits on the overbreadth doctrine’s exception to third
party standing and “maintain an appropriate balance”
between “competing social costs.” Williams, 553 U.S.
at 292; see Los Angeles Police Dep’t, 528 U.S. at 39-40.

20
Although striking down a law on overbreadth grounds
is sometimes necessary to eliminate a chilling effect on
third parties who are deterred “from engaging in constitutionally protected speech,” reliance on the overbreadth doctrine has the “obvious harmful effects” of
“invalidating a law that in some of its applications is perfectly constitutional—particularly a law directed at conduct so antisocial that it has been made criminal.” Williams, 553 U.S. at 292. The Ninth Circuit’s judicial
pruning of the jury’s findings here improperly gives the
former consideration controlling weight, and magnifies
the social costs of the overbreadth doctrine, by invalidating a more specific offense whose applications are always or virtually always constitutional, solely because
of constitutional concerns about a more generic offense
that does not contain all of those same limitations.
Under the court of appeals’ logic, those increased social costs would be incurred because of a happenstance
of legislative drafting. The court below reasoned that
the financial-gain requirement was irrelevant because it
was an “enhancement” on a “base offense.” App., infra,
10a n.5. But although Congress structured this particular statute as imposing heightened penalties upon a
person who “violates subparagraph (A)” for “commercial advantage or private financial gain,” 8 U.S.C.
1324(a)(1)(B)(i), Congress just as easily could have defined the same two crimes by enacting two entirely distinct subparagraphs that each set forth complete and
self-contained criminal offenses. For example, Congress could have enacted a provision making it (A) a
crime punishable by up to five years of imprisonment to
encourage or induce unlawful entry or residence; and
(B) a crime punishable by up to ten years of imprisonment
to encourage or induce unlawful entry or residence for

21
financial gain. That version of the statute would be substantively identical to the existing one, and would
plainly foreclose the “enhancement” rationale that the
court of appeals employed to expand the overbreadth
doctrine. A court should not take the extraordinary
step of facially invalidating a federal criminal statute
solely because Congress decided to use a cross reference rather than repeat itself.
The Ninth Circuit identified no support in this
Court’s decisions for deeming a required component of
the offense of conviction to be irrelevant to the overbreadth analysis. For example, in United States v. Alvarez, 567 U.S. 709 (2012), this Court reversed a conviction for lying about winning the Congressional Medal of
Honor. See id. at 713-715 (plurality opinion). The relevant statute, the Stolen Valor Act of 2005, 18 U.S.C. 704
(2006), had a base offense covering false statements
about winning a variety of federal medals, and aggravated penalties for lies about the Medal of Honor specifically. See 18 U.S.C. 704(b) and (c) (2006). But rather
than ignoring the Medal-of-Honor element and looking
solely at the more general base offense, the Court’s
analysis recognized that the relevant offense was lying
about the Medal of Honor, and ultimately concluded
that the statute was unconstitutional notwithstanding
that “[t]he Government’s interest in protecting the integrity of the Medal of Honor is beyond question.” Alvarez, 567 U.S. at 725 (plurality opinion); see also id. at
737-739 (Breyer, J., concurring in the judgment) (discussing the Medal of Honor in First Amendment balancing).
The Ninth Circuit’s erroneous approach to overbreadth here is also particularly significant because the
financial-gain requirement itself minimizes any overbreadth relative to the statute’s “plainly legitimate

22
sweep.” Washington State Grange, 552 U.S. at 449 n.6
(citation omitted). As discussed, that requirement alone
excludes a broad array of protected speech, including
the court of appeals’ hypotheticals involving speech at a
political rally or a grandmother’s loving pleas to her
grandson. App., infra, 35a, 38a-40a. And it ensures that
any application to false speech is limited to speech that
qualifies as unprotected “fraud.” Stevens, 559 U.S. at
468; see Alvarez, 567 U.S. at 723 (plurality opinion) (emphasizing that the Stolen Valor Act was not limited to
lies “made for the purpose of material gain”).
b. Even assuming that an overbreadth challenge to
respondent’s conviction could omit the financial-gain
finding underlying that conviction, the Ninth Circuit
erred in insisting that the statute must be read to cover
abstract advocacy.
The Ninth Circuit’s reasons for refusing to construe
Section 1324(a)(1)(A)(iv) as a relatively narrow ban on
soliciting or facilitating illegal activity are unsound. Its
view that “encourage” in this context necessarily refers
to protected speech, App., infra, 19a, cannot be squared
with this Court’s own use of that term to describe unprotected speech, e.g., Cox, 379 U.S. at 563, the term’s appearance in the standard definition of “abet,” see
Black’s Law Dictionary 4, or the term’s common usage
in state complicity statutes, see p. 10, supra (collecting
examples). Section 1324(a)(1)(A)(iv)’s use of fewer
verbs than normally associated with a solicitation or
aiding-and-abetting statute, see App., infra, 28a n.9,
31a-33a, should if anything mean that it is no broader
than such provisions.
Contrary to the Ninth Circuit’s supposition (App.,
infra, 17a-18a), construing Section 1324(a)(1)(A)(iv) in

23
accord with the normal contextual usage of “encouraging or inducing” would not render the provision superfluous. As discussed above, see p. 12, supra, Section
1324(a)(1)(A)(iv) is the only provision that criminalizes
complicity in certain conduct that violates the civil immigration laws. Section 1324(a)(1)(A)’s other aidingand-abetting provision, 8 U.S.C. 1324(a)(1)(A)(v)(II),
covers only facilitation of violations of Section
1324(a)(1)(A) itself, not facilitation of an alien’s primary
conduct in violation of the immigration laws. Respondent’s own conduct, for example, only violates Section
1324(a)(1)(A)(iv). That latter provision is also not superfluous for the further reason that federal law contains no general prohibition on soliciting illegal activity.
To the extent that Section 1324(a)(1)(A)(iv) might
differ in certain respects from other facilitation or solicitation statutes, see App., infra, 32a-33a, any such differences do not compel the conclusion that it sweeps in
substantial amounts of protected speech. This Court
has never prescribed a one-size-fits-all test for determining when speech is “integral to criminal conduct,”
Stevens, 559 U.S. at 468, and thus unprotected. And a
common thread of prohibitions “against conspiracy, incitement, and solicitation,” whose constitutionality has
never been doubted, is that they proscribe behavior “intended to induce or commence illegal activities.” Williams, 553 U.S. at 298. A statute that directly prohibits
inducement of an unlawful act, or encouragement that
incentivizes (and thus increases the likelihood of ) an
unlawful act, is not facially overbroad. E.g., International Bhd. of Elec. Workers, 341 U.S. at 705.
At a minimum, the Ninth Circuit’s reading of Section
1324(a)(1)(A)(iv) violated the cardinal principle that an
ambiguous statute should be construed to avoid serious

24
constitutional doubt. E.g., Skilling, 561 U.S. at 403.
This Court has recognized that “if an otherwise acceptable construction of a statute would raise serious constitutional problems, and where an alternative interpretation of the statute is ‘fairly possible,’ we are obligated to
construe the statute to avoid such problems.” INS v. St.
Cyr, 533 U.S. 289, 299-300 (2001) (citation omitted); see,
e.g., Jennings v. Rodriguez, 138 S. Ct. 830, 836 (2018);
United States ex rel. Attorney Gen. v. Delaware & Hudson Co., 213 U.S. 366, 407-408 (1909). Caution is particularly warranted in overbreadth cases, which have the
“tendency * * * to summon forth an endless stream of
fanciful hypotheticals,” Williams, 553 U.S. at 301, as
the Ninth Circuit’s opinion here illustrates.
B. The Question Presented Warrants This Court’s Review

This Court’s review is necessary because the Ninth
Circuit has invalidated an Act of Congress on its face.
This Court regularly grants certiorari, with or without
a circuit conflict, when “a Federal Court of Appeals has
held a federal statute unconstitutional.” United States
v. Kebodeaux, 570 U.S. 387, 391 (2013); see, e.g., Iancu v.
Brunetti, No. 18-302 (June 24, 2019), slip op. 3 (“As usual
when a lower court has invalidated a federal statute, we
granted certiorari.”); United States v. Davis, No. 18-431
(June 24, 2019); Matal v. Tam, 137 S. Ct. 1744 (2017); Zivotofsky v. Kerry, 135 S. Ct. 2076 (2015); Department of
Transp. v. Association of Am. R.Rs., 135 S. Ct. 1225
(2015); Alvarez, supra; Holder v. Humanitarian Law
Project, 561 U.S. 1 (2010); United States v. Comstock,
560 U.S. 126 (2010). That practice is consistent with the
Court’s recognition that judging the constitutionality of
a federal statute is “the gravest and most delicate duty
that th[e] Court is called upon to perform.” Rostker v.

25
Goldberg, 453 U.S. 57, 64 (1981) (quoting Blodgett v.
Holden, 275 U.S. 142, 148 (1927) (opinion of Holmes, J.)).
Review is especially warranted here because, as the
Ninth Circuit acknowledged, its interpretation of Section 1324(a)(1)(A)(iv) does in fact conflict with another
circuit’s. See App., infra, 22a-23a. The Third Circuit has
interpreted Section 1324(a)(1)(A)(iv) to exclude “general advice” and instead to require “some affirmative
assistance that makes an alien lacking lawful immigration status more likely to enter or remain in the United
States than she otherwise might have been.” DelRioMocci v. Connolly Props. Inc., 672 F.3d 241, 248, cert.
denied, 568 U.S. 821 (2012); see id. at 249 (construing
Section 1324(a)(1)(A)(iv) to prohibit “an affirmative act
that substantially encourages or induces an alien lacking lawful immigration status to come to, enter, or reside in the United States where the undocumented person otherwise might not have done so”). The Ninth Circuit, however, determined that the statute “is [not] reasonably susceptible” to the Third Circuit’s construction,
“reject[ed]” the Third Circuit’s determination that the
statute only reaches “an act that provides substantial
assistance,” and “disagree[d] with the Third Circuit”
about the need for a causal link to the alien’s willingness
to violate the law. App., infra, 23a.
The Ninth Circuit’s decision is also important in practical terms. First, Section 1324(a)(1)(A)(iv)—and in particular the financial-gain offense with higher penalties—
is an important tool for combating alien smuggling and
other similar conduct that knowingly causes or significantly contributes to individual aliens violating the immigration laws. See p. 12, supra. Second, the court of
appeals’ decision potentially calls into question a broader
array of governmental action. Congress has defined a

26
violation of Section 1324(a)(1)(A) by someone who is
himself an alien to be an “aggravated felony” for purposes of removal, 8 U.S.C. 1101(a)(43)(N). It has also
made an alien inadmissible or deportable if he “encouraged, induced, assisted, abetted, or aided any other alien to enter or to try to enter the United States” unlawfully, 8 U.S.C. 1182(a)(6)(E)(i), 1227(a)(1)(E)(i). The
Ninth Circuit’s ruling casts at least some doubt on applications of those provisions, as well as removal proceedings predicated upon them. Finally, the high proportion of immigration-related litigation, including
criminal prosecutions, that occurs in the Ninth Circuit
make it all the more imperative to review a decision of
this magnitude from that court.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ERIC J. FEIGIN
ZACHARY D. TRIPP
Assistants to the Solicitor
General
ANDREW W. LAING
Attorney

JULY 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 15-10614
D.C. No. CR 10-414 RMW
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
EVELYN SINENENG-SMITH, DEFENDANT-APPELLANT
Argued and Submitted: Apr. 18, 2017
San Francisco, California
Reargued and Resubmitted: Feb. 15, 2018
Pasadena, California
Filed: Dec. 4, 2018
Appeal from the United States District Court
for the Northern District of California
Ronald M. Whyte, Senior District Judge, Presiding
OPINION

Before: A. WALLACE TASHIMA, MARSHA S. BERZON,
and ANDREW D. HURWITZ, ∗ Circuit Judges.
∗

Judge Reinhardt, who was originally a member of this panel,
died after this case was reargued and resubmitted for decision.
Judge Hurwitz was randomly drawn to replace him. Judge Hurwitz has read the briefs, reviewed the record, and watched video recordings of the oral arguments.

(1a)

2a
Opinion by Judge TASHIMA
TASHIMA, Circuit Judge:
INTRODUCTION

Defendant-Appellant Evelyn Sineneng-Smith was
convicted on two counts of encouraging and inducing an
alien to remain in the United States for the purposes of
financial gain, in violation of 8 U.S.C. § 1324(a)(1)(A)(iv) &
§ 1324(a)(1)(B)(i). 1 Section 1324(a)(1)(A)(iv) (“Subsection (iv)”) permits a felony prosecution of any person
who “encourages or induces an alien to come to, enter, or
reside in the United States” if the encourager knew, or
recklessly disregarded “the fact that such coming to, entry, or residence is or will be in violation of law.” We
must decide whether Subsection (iv) abridges constitutionallyprotected speech. To answer this question, we must decide what “encourages or induces” means.
The parties have widely divergent views about how
to interpret the statute. Sineneng-Smith and several
amici contend that encourage and induce carry their
plain meaning and, therefore, restrict vast swaths of
protected expression in violation of the First Amendment. The government counters that the statute, in context, only prohibits conduct and a narrow band of unprotected speech.
We do not think that any reasonable reading of the
statute can exclude speech. To conclude otherwise, we

Sineneng-Smith was also convicted of two counts of mail fraud in
violation of 18 U.S.C. § 1341. We affirm those convictions in a separate, concurrently filed memorandum disposition.
1

3a
would have to say that “encourage” does not mean encourage, and that a person cannot “induce” another with
words. At the very least, it is clear that the statute potentially criminalizes the simple words—spoken to a
son, a wife, a parent, a friend, a neighbor, a coworker, a
student, a client—“I encourage you to stay here.”
The statute thus criminalizes a substantial amount of
constitutionally-protected expression. The burden on
First Amendment rights is intolerable when compared
to the statute’s legitimate sweep. Therefore, we hold
that Subsection (iv) is unconstitutionally overbroad in
violation of the First Amendment.
FACTUAL AND PROCEDURAL BACKGROUND
A.

Underlying Facts

Sineneng-Smith operated an immigration consulting
firm in San Jose, California. Her clients were mostly
natives of the Philippines, unlawfully employed in the
home health care industry in the United States, who
sought authorization to work and adjustment of status
to obtain legal permanent residence (green cards).
Sineneng-Smith assisted clients with applying for a
“Labor Certification,” and then for a green card. She
signed retainer agreements with her clients that specified the purpose of the retention as “assisting [the client] to obtain permanent residence through Labor Certification.” The problem was that the Labor Certification process expired on April 30, 2001; aliens who arrived in the United States after December 21, 2000, were
not eligible to receive permanent residence through the
program. See Esquivel-Garcia v. Holder, 593 F.3d 1025,
1029 n.1 (9th Cir. 2010). Sineneng-Smith knew that the
program had expired. She nonetheless continued to

4a
sign retainer agreements with her clients and tell them
that they could obtain green cards via Labor Certifications. And she also continued to sign new retainer
agreements purportedly to assist additional clients in
obtaining Labor Certification. At least two of SinenengSmith’s clients testified that they would have left the
country if Sineneng-Smith had told them that they were
not eligible for permanent residence. Sineneng-Smith’s
words and acts which allegedly violated the statute were
alleged to have occurred from 2001 to 2008.
B.

Procedural History

On July 14, 2010, a grand jury returned a ten-count
superseding indictment charging Sineneng-Smith with, as
relevant to this appeal, three counts of violating 8 U.S.C.
§ 1324(a)(1)(A)(iv) & § 1324(a)(1)(B)(i)—encouraging or
inducing an alien to reside in the country, knowing and
in reckless disregard of the fact that such residence is in
violation of the law.
Before trial, Sineneng-Smith moved to dismiss the
immigration counts of the superseding indictment.
Sineneng-Smith argued that: (1) her conduct was not
within the scope of Subsection (iv); (2) Subsection (iv) is
impermissibly vague under the Fifth Amendment; and
(3) Subsection (iv) violates the First Amendment because it is a content-based restriction on her speech.
The district court denied the motion to dismiss, but did
not explicitly address the First Amendment argument.
After a twelve-day trial, the jury found SinenengSmith guilty on all three counts of violating Subsection
(iv) and § 1324(a)(1)(B)(i), and all three counts of mail
fraud. Sineneng-Smith then moved for a judgment of

5a
acquittal pursuant to Federal Rule of Criminal Procedure 29(c), renewing the arguments from her motion to
dismiss and contending that the evidence elicited at trial
did not support the verdicts. The district court concluded that sufficient evidence supported the convictions for two of the three § 1324 counts and two of the
three mail fraud counts. 2
Sineneng-Smith timely appealed, again arguing that
the charges against her should have been dismissed for
the reasons asserted in her motion to dismiss, and that
the evidence did not support the convictions. We first
held oral argument on April 18, 2017, and submitted the
case for decision. Subsequent to submission, however,
we determined that our decision would be significantly
aided by further briefing. On September 18, 2017, we
filed an order inviting interested amici to file briefs on
the following issues:
1.

Whether the statute of conviction is overbroad or
likely overbroad under the First Amendment, and
if so, whether any permissible limiting construction would cure the First Amendment problem?

2.

Whether the statute of conviction is void for
vagueness or likely void for vagueness, either
under the First Amendment or the Fifth Amendment, and if so, whether any permissible limiting

The court sentenced Sineneng-Smith to 18 months on each of the
remaining counts, to be served concurrently; three years of supervised release on the § 1324 and mail fraud counts, and one year of
supervised release on the filing of false tax returns count, all to run
concurrently. She was also ordered to pay $43,550 in restitution, a
$15,000 fine, and a $600 special assessment.
2

6a
construction would cure the constitutional vagueness problem?
3.

Whether the statute of conviction contains an implicit mens rea element which the Court should
enunciate. If so: (a) what should that mens rea
element be; and (b) would such a mens rea element cure any serious constitutional problems
the Court might determine existed?

We received nine amicus briefs, 3 as well as supplemental briefs from both Sineneng-Smith and the government. On February 15, 2018, we again held oral argument and resubmitted the case for decision.
STANDARD OF REVIEW

The government urges us to review Sineneng-Smith’s
First Amendment overbreadth claim for plain error, arguing that she waived the issue by not raising it until we
requested supplemental briefing.
Although Sineneng-Smith never specifically argued
overbreadth before our request for supplemental briefing,
she has consistently maintained that a conviction under
the statute would violate the First Amendment. SinenengSmith’s motion to dismiss argued that “[t]he crime alleged here is rooted in speech content—performing immigration consultancy work on behalf of aliens and their
employers by petitioning the government on their behalf
—not in conduct lacking any First Amendment protection.” Likewise, her opening brief on appeal reasserted
a First Amendment challenge: “Such communication
is ‘pure’ speech entitled to the highest level of protection.”

3

We thank all amici for their helpful briefs and oral advocacy.

7a
“Once a federal claim is properly presented, a party
can make any argument in support of that claim; parties
are not limited to the precise arguments they made below.” Yee v. City of Escondido, 503 U.S. 519, 534 (1992).
Because Sineneng-Smith has asserted a First Amendment claim throughout the litigation, her overbreadth
challenge “is—at most—a new argument to support what
has been a consistent claim.” Citizens United v. FEC,
558 U.S. 310, 331 (2010) (internal quotation marks omitted). We thus conclude that she preserved her overbreadth argument, and review it de novo.
ANALYSIS

The First Amendment dictates that “Congress shall
make no law . . . abridging the freedom of speech.”
“[A] law imposing criminal penalties on protected speech
is a stark example of speech suppression.” Ashcroft v.
Free Speech Coal., 535 U.S. 234, 244 (2002).
Of course, like most constitutional principles, the
right to free speech “is not absolute.” Ashcroft v. Am.
Civil Liberties Union, 535 U.S. 564, 573 (2002). For
example, laws or policies that target conduct but only
incidentally burden speech may be valid. See, e.g., Virginia v. Hicks, 539 U.S. 113, 122-23 (2003). Further,
traditional narrow carve-outs to the First Amendment,
“long familiar to the bar,” allow Congress to restrict certain types of speech “including obscenity, defamation,
fraud, incitement, and speech integral to criminal conduct.” United States v. Stevens, 559 U.S. 460, 468 (2010)
(internal quotation marks and citations omitted).
Sineneng-Smith and several amici argue that the
statute explicitly criminalizes speech through its use of
the term “encourages or induces,” and that the speech

8a
restriction is content-based and viewpoint-discriminatory,
because it criminalizes only speech in support of aliens
coming to or remaining in the country. Alternatively,
Sineneng-Smith asserts that even if the statute targets
some conduct, it sweeps in too much protected speech
and is therefore unconstitutionally overbroad. The government counters that Subsection (iv) should be read as
referring only to conduct and, to the extent it affects
speech, restricts only unprotected speech.
We address those competing constructions below, beginning with the topic of overbreadth. 4
I.

First Amendment Overbreadth

Because of the “sensitive nature of protected expression,” New York v. Ferber, 458 U.S. 747, 768 (1982), “[t]he
Constitution gives significant protection from overbroad
laws that chill speech within the First Amendment’s
vast and privileged sphere,” Free Speech Coal., 535 U.S.
at 244. To implement this protection, the general rules
governing facial attacks on statutes are relaxed under
the First Amendment. Typically, to succeed on a facial
attack, a challenger would need “to establish that no set
of circumstances exists under which [the statute] would
be valid, or that the statute lacks any plainly legitimate
sweep.” Stevens, 559 U.S. at 472 (internal quotation
marks and citations omitted).

We follow the Supreme Court’s lead in assessing the statute’s
overbreadth before engaging in the strict scrutiny analysis that
would follow if we concluded that Subsection (iv) was a contentbased restriction on speech. See Stevens, 559 U.S. at 474 (recognizing that the statute at issue explicitly regulated expression based on
content, but analyzing the statute for overbreadth rather than for
whether it survived strict scrutiny).
4

9a
However, “[i]n the First Amendment context . . .
a law may be invalidated as overbroad if ‘a substantial
number of its applications are unconstitutional, judged
in relation to the statute’s plainly legitimate sweep.’ ”
Id. at 473 (quoting Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449, n. 6 (2008)). This
exception to the typical rule is based on the idea that
speakers may be chilled from expressing themselves if
overbroad criminal laws are on the books. See Farber,
458 U.S. at 768-69 (citing Vill. of Schaumburg v. Citizens for a Better Env’t, 444 U.S. 620, 634 (1980)). To
combat that chilling effect, even a person whose activity
is clearly not protected may challenge a law as overbroad under the First Amendment. See id.
To determine whether Subsection (iv) is overbroad,
we must first construe the statute. Next, we must ask
whether Subsection (iv), as construed, restricts speech
and, if so, whether that speech is protected. Finally,
we must weigh the amount of protected speech that the
statute restricts against the statute’s legitimate sweep.
Recognizing that striking down a statute as overbroad is “strong medicine,” and the justification for facially striking down a statute “attenuates as the otherwise unprotected behavior that it forbids the State to
sanction moves from ‘pure speech’ toward conduct,” we
conclude that the chilling effect of Subsection (iv) is both
real and substantial. Broadrick v. Oklahoma, 413 U.S.
601, 615-16 (1973). The only reasonable construction of
Subsection (iv) restricts a substantial amount of protected speech in relation to the narrow band of conduct
and unprotected expression that the statute legitimately
prohibits. Therefore, we hold that Subsection (iv) is facially invalid.

10a

A.

Construing the Statute

“The first step in overbreadth analysis is to construe
the challenged statute; it is impossible to determine
whether a statute reaches too far without first knowing
what the statute covers.” United States v. Williams,
553 U.S. 285, 293 (2008). Subsection (iv) reads: “Any
person who . . . encourages or induces an alien to
come to, enter, or reside in the United States, knowing
or in reckless disregard of the fact that such coming to,
entry, or residence is or will be in violation of law . . .
shall be punished as provided in subparagraph (B).” 5
Construing the statute also requires us to look beyond
the plain text of Subsection (iv). See Stevens, 559 U.S.
at 474. Thus, to interpret Subsection (iv), we analyze:
the mens rea required for conviction; what “encourages
or induces” means; whether “an alien” limits the scope
of the statute; and whether “in violation of law” refers to
both criminal and civil laws.
The government argues that the “statute of conviction is not
8 U.S.C. § 1324(a)(1)(A)(iv), standing alone. Rather, the indictment
charged and the jury found that Sineneng-Smith acted ‘for the purpose of commercial advantage or private financial gain’ under 8 U.S.C.
§ 1324(a)(1)(B)(i). . . . Accordingly, the ‘statute[s] of conviction’
are 8 U.S.C. § 1324(a)(1)(A)(iv) and (B)(i).” Subsection (B)(i) is a
commercial enhancement of Subsection (A)(iv). For the purposes
of our overbreadth analysis, the commercial enhancement is irrelevant. Subsection (A)(iv) is the predicate criminal act; without the
encouraging or inducing, Sineneng-Smith could not have been convicted. And, as the meaning of § 1324(a)(1)(A)(iv) does not vary depending upon whether the financial gain enhancement also applies,
the chilling effect of the “encourage or induce” statute extends to
anyone who engages in behavior covered by it, whether for financial
gain or not.
5

11a
The government contends that a defendant runs
afoul of Subsection (iv) only when she (1) knowingly undertakes, (2) a non-de-minimis, (3) act that, (4) could assist, (5) a specific alien (6) in violating, (7) civil or criminal immigration laws.
While we endeavor to “construe[] [a statute] to avoid
serious constitutional doubts,” we can only do so if the
statute is “readily susceptible to such a construction.”
Stevens, 559 U.S. at 481 (internal quotation marks and
citations omitted). “We will not rewrite a law to conform it to constitutional requirements, for doing so
would constitute a serious invasion of the legislative domain, and sharply diminish Congress’ incentive to draft
a narrowly tailored law in the first place.” Id. (internal
quotation marks and citations omitted).
The government’s interpretation of Subsection (iv)
rewrites the statute. For the following reasons, we hold
that to violate Subsection (iv), a defendant must knowingly encourage or induce a particular alien—or group
of aliens—to come to, enter, or reside in the country in
reckless disregard of whether doing so would constitute
a violation of the criminal or civil immigration laws on
the part of the alien. As properly construed, “encourage
or induce” can mean speech, or conduct, or both, and
there is no substantiality or causation requirement.
1. Mens Rea

We first address what mens rea is required to sustain
a conviction under Subsection (iv). As an initial matter, the most natural reading of Subsection (iv) requires
us to break it into two prongs for the purposes of determining the requisite mens rea: first, the “encourage or
induce” prong; and, second, the violation of law prong.

12a
Subsection (iv) is silent about the mens rea required for
the encourage prong, but explicitly provides that a defendant must “know[] or reckless[ly] disregard” the fact
that an alien’s “coming to, entry, or residence is or will
be in violation of law.” 8 U.S.C. § 1324(a)(1)(A)(iv).
a. Mens Rea for “encourage or induce” Prong
In United States v. Yoshida, the defendant was indicted for “knowingly encouraging and inducing” three
aliens to enter the United States. 303 F.3d 1145, 1149
(9th Cir. 2002). On appeal, Yoshida argued that “there
[was] insufficient evidence that she . . . knowingly
encouraged or induced in some way [the aliens’] presence in the United States.” Id. at 1149-50. In affirming
the conviction, we concluded that “[a] number of events
revealed at trial creates a series of inescapable inferences leading to the rational conclusion that Yoshida
knowingly ‘encouraged and induced’ [the aliens] to enter
the United States.” Id. at 1150. We repeatedly emphasized the knowledge requirement. See id. (“The government also offered circumstantial evidence that Yoshida knowingly encouraged [the aliens] to enter the
United States”); id. at 1151 (“a reasonable jury could
easily conclude that Yoshida knowingly led the aliens to
the flight”). Therefore, we think it clear that Subsection
(iv) has a knowledge mens rea for the encourage prong.
b. Mens Rea for the Violation of Law Prong
Despite the fact that Subsection (iv) explicitly states
that a defendant must “know[] or reckless[ly] disregard” the fact that an alien’s “coming to, entry, or residence is or will be in violation of law,” the government
argues that we have increased that mens rea requirement to an “intent” to violate the immigration laws.

13a
We disagree, but recognize that our prior cases provide
some support for the government’s position.
The government’s argument is based on United States
v. Nguyen, 73 F.3d 887 (9th Cir. 1995), in which we reviewed a conviction under subsection (i) of § 1324(a)(1)(A).
Subsection (i) criminalizes “bring[ing]” an alien “to the
United States . . . at a place other than a designated
port of entry” when the defendant “know[s] that [such]
person is an alien.” 8 U.S.C. § 1324(a)(1)(A)(i). “Read
literally, then, the statute criminalizes bringing, purposefully or otherwise, any alien, illegal or otherwise,
into the country other than at a designated port of entry.” Nguyen, 73 F.3d at 890. In the absence of an
explicit mens rea standard, we considered the legislative history of the statute and concluded that Congress
did not intend to “dispense with a mens rea requirement
for the felony offense.” Id. at 893. “Accordingly, we
[held] that to convict a person of violating [§] 1324(a)(1)(A),
the government must show that the defendant acted
with criminal intent.” 6 Id.
Subsequent cases adding a mens rea element to the
other subsections of § 1324(a)(1)(A) adopted Nguyen’s
criminal intent language. See United States v. BarajasMontiel, 185 F.3d 947, 951-53 (9th Cir. 1999). Central to
the government’s argument, in Yoshida we stated, “[w]e
“Criminal intent” is an amorphous term that can signify different
levels of culpability. For example, Black’s Law Dictionary defines
the term as “mens rea,” or “[a]n intent to commit an actus reus without any justification, excuse, or other defense.” Intent, Black’s
Law Dictionary, 930-31 (10th ed. 2014). However, Black’s also recognizes that sometimes “criminal intent” means “an intent to violate
the law,—implying a knowledge of the law violated.” Id. (citations
omitted).
6

14a
have held that ‘to convict a person of violating section
1324(a)(1)(A), the government must show that the defendant acted with criminal intent, i.e., the intent to violate
United States immigration laws.’ ” Yoshida, 303 F.3d
at 1149 (quoting Barajas-Montiel, 185 F.3d at 951).
However, the passing reference to “criminal intent”
in Yoshida did not increase the mens rea of the violation
of law prong to intent. We affirmed Yoshida’s conviction because “the jury had ample evidence before it to
conclude, beyond a reasonable doubt, that Yoshida encouraged the aliens to enter the United States, with
knowledge or in reckless disregard of the fact that the
aliens’ entry was in violation of law.” Id. at 1151 (emphasis added). Not only does Yoshida foreclose the
government’s argument that we have increased the
mens rea level of Subsection (iv), it confirms that we
have not read out of the statute the “reckless disregard”
standard that appears explicitly in it.
2. “Encourages or Induces”

a. Our Construction of “encourage or induce”
Next, we turn to the meaning of “encourage or induce.”
As always, we begin with the language of the statute to
determine whether it has “a plain and unambiguous
meaning with regard to the particular dispute in the
case.” Barnhart v. Sigmon Coal Co., 534 U.S. 438, 450
(2002) (quoting Robinson v. Shell Oil Co., 519 U.S. 337,
340 (1997)). A critical dispute in this case is whether,
and to what extent, the words “encourage and induce”
criminalize protected speech.
We have previously recognized that “encourage”
means “to inspire with courage, spirit, or hope . . .
to spur on . . . to give help or patronage to.” United

15a
States v. Thum, 749 F.3d 1143, 1147 (9th Cir. 2014)
(alterations in original) (quoting United States v. He,
245 F.3d 954, 960 (7th Cir. 2001) (quoting Merriam Webster’s Collegiate Dictionary 381 (10th ed. 1996))). This
definition is well-accepted. See, e.g., Encourage, Oxford
English Dictionary Online (3d ed. 2018) (“to inspire
with courage, animate, inspirit . . . . [t]o incite, induce, instigate”). Similarly, induce means “[t]o lead (a
person), by persuasion or some influence or motive that
acts upon the will . . . to lead on, move, influence,
prevail upon (any one) to do something.” Induce, Oxford
English Dictionary Online (3d ed. 2018).
In isolation, “encourage or induce” can encompass
both speech and conduct. It is indisputable that one
can encourage or induce with words, or deeds, or both.
The dictionary definitions do not, however, necessarily
resolve the dispute in this case. We must also examine
the context in which the words are used to determine
whether we can avoid First Amendment concerns. See
Williams, 553 U.S. at 294-95. We look to the principle
of noscitur a sociis to determine whether the language
surrounding “encourage or induce” provides those
words with a more precise definition. Id. at 294.
In Williams, the Supreme Court analyzed whether
18 U.S.C. § 2252A(a)(3)(B)’s prohibition on “advertis[ing], promot[ing], present[ing], distribut[ing], or solicit[ing]” purported child pornography was overbroad.
Id. at 293-94. In construing the statute, the Court narrowed the meanings of “promotes” and “presents” in
light of their neighboring verbs. Id. at 294. The Court
reasoned that “advertises,” “distributes,” and “solicits” all
had an obvious transactional connotation: “Advertising,
distributing, and soliciting are steps taken in the course

16a
of an actual or proposed transfer of a product.” Id.
“Promotes” and “presents,” on the other hand, are not
obviously transactional. In context, however, the Supreme Court read them as having a transactional meaning as well. Id. at 294-95. Thus, the Court interpreted
“promotes” to mean “recommending purported child
pornography to another person for his acquisition,” and
“presents” to “mean[] showing or offering the child pornography to another person with a view to his acquisition.” Id. at 295.
By contrast, Subsection (iv) does not have a string of
five verbs—it is limited to only two: “encourages or induces.” Here, the proximity of encourage and induce
to one another does not aid our analysis. As discussed
above, both encourage and induce can be applied to
speech, conduct, or both. Therefore, unlike the string
of verbs in Williams, neither of these verbs has clear
non-speech meanings that would inform and limit the
other’s meaning. In other words, when read together,
they do not provide a more precise definition or one that
excludes speech. Nor are the words necessarily transactional like those in Williams. Thus, the application of
noscitur a sociis to the two operative verbs here, does
not narrow our search; our conclusion that Subsection
(iv) could cover speech, as well as conduct, remains.
Beyond their immediate neighbors in Subsection (iv),
encourage and induce also “keep company” with the verbs
in the other subsections of § 1324(a)(1)(A). The neighboring subsections prohibit: (i) “bring[ing]” an alien to
the United States “at a place other than a designated
port of entry;” (ii) “transport[ing] or mov[ing]” an alien
in furtherance of a violation of the immigration laws; and

17a
(iii) “conceal[ing], harbor[ing], or shield[ing] from detection” an alien in the country in violation of the immigration laws. 8 U.S.C. § 1324(a)(1)(A)(i), (ii), & (iii). Bringing, transporting, moving, concealing, harboring, and
shielding all clearly refer to some type of action.
The government contends, in light of these other
verbs in the other subsections, that “encourage or induce” “should likewise be interpreted to require specific
actions that facilitate an alien’s coming to, entering, or
residing in the United States illegally. So understood,
§ 1324(a)(1)(A)[(iv)] serves as a ‘catch-all’ provision that
covers actions other than ‘bringing,’ ‘transporting,’ etc.,
that might facilitate illegal immigration.” (Citation
omitted.) Conversely, Amicus American Civil Liberties Union contends that subsections (i)-(iii) criminalize
so much conduct that the only thing left to criminalize in
Subsection (iv) is pure speech.
The government’s proposed interpretation of “encourage or induce” in the context of § 1324(a)(1)(A) is
strained. While we agree that the statute is intended
to restrict the facilitation of illegal immigration and that
subsections (i)-(iii) prohibit specific actions, it does not
follow that Subsection (iv) covers only actions. Instead,
the structure of the section lends itself to the more obvious conclusion that the verbs in the subsections must
mean different things because they form the basis of separate charges. See Thum, 749 F.3d at 1146-47.
In § 1324, “Congress created several discrete immigration offenses including,” among others, the crimes
outlined in subsections (a)(1)(A)(i)-(iv). United States
v. Lopez, 484 F.3d 1186, 1190-91, 1193-94 (9th Cir. 2007)
(en banc); see Thum, 749 F.3d at 1146. We have held
that construing § 1324(a)(1)(A) “so that effect is given to

18a
all its provisions, so that no part will be inoperative or
superfluous, void or insignificant,” requires Subsection
(iv) to be read as excluding the conduct criminalized in
the remaining subsections. Thum, 749 F.3d at 1147
(quoting Corley v. United States, 556 U.S. 303, 314 (2009)).
If encouraging or inducing cannot mean bringing, transporting, moving, concealing, harboring, or shielding,
what is left?
The government offers a few limited examples of
other actions that could potentially be covered under
Subsection (iv), but not reached by subsections (i)-(iii).
These examples include: (1) providing aliens with false
documents; (2) selling a border-crossing kit to aliens, including a map of “safe crossing” points and backpacks
filled with equipment designed to evade border patrol;
(3) duping foreign tourists into purchasing a fake “visa
extension;” or (4) providing a “package deal” to foreign
pregnant women who wish to give birth in the United
States that includes a year of room and board, a sixmonth tourist visa, and instructions on how to overstay
the visa without detection. But we doubt Congress intended to limit Subsection (iv) to actions such as these,
as the provision does not appear necessary to prosecute
any of these actions. Subsection (i), (iii), and (v)(II),
which, respectively, restrict bringing, shielding from detection, and aiding and abetting the commission of any
of these acts, cover the examples raised by the government. Additionally, 8 U.S.C. § 1324c and 18 U.S.C.
§ 1546 provide broad criminal prohibitions against document fraud in violation of the immigration laws. These
few, unpersuasive examples therefore do not convince
us that “encourage” and “induce” can be read so as not
to encompass speech, even though their plain meaning
dictates otherwise.

19a
In sum, the structure of the statute, and the other
verbs in the separate subsections, do not convince us to
stray from the plain meaning of encourage and induce—
that they can mean speech, or conduct, or both. Although
the “encourage or induce” prong in Subsection (iv) may
capture some conduct, there is no way to get around the
fact that the terms also plainly refer to First Amendmentprotected expression. In fact, in Williams, one of the
seminal overbreadth cases, Justice Scalia used the
statement, “I encourage you to obtain child pornography” as an example of protected speech. 553 U.S. at
300. We see no reason why “I encourage you to overstay your visa” would be any different. And interpreting “encourage or induce” to exclude such a statement
would require us to conclude that “encourage” does not
mean encourage. The subsection is not susceptible to
that construction. Subsection (iv), therefore, criminalizes encouraging statements like Justice Scalia’s example and other similar expression.
b. Other Courts’ Construction of “encourage
or induce”
Only one other Circuit has considered a First Amendment overbreadth challenge to Subsection (iv), and that
was in an unpublished disposition. In United States v.
Tracy, the defendant “pled guilty to one count of conspiring to encourage non-citizens to enter the United
States illegally . . . but reserved the right to appeal
the district court’s denial of his motion to dismiss that
charge.” 456 F. App’x 267, 268 (4th Cir. 2011) (per curiam). The Fourth Circuit rejected the defendant’s argument “that speech that encourages illegal aliens to
come to the United States is protected by the First

20a
Amendment in certain instances.” Id. at 272. Instead, the court stated “that speech that constitutes
criminal aiding and abetting does not enjoy the protection of the First Amendment,” and concluded that the
statute did not prohibit a substantial amount of protected speech. Id. (alteration and citations omitted).
We will address the extent to which Subsection (iv) can
be read to prohibit only aiding and abetting in more detail below, but it is clear that Tracy recognized that the
subsection reaches some speech. Id. (“[T]here may
be some instances in which we might find that the statute chills protected speech.”).
Although not addressing Subsection (iv) from a First
Amendment perspective, other courts have interpreted
what “encourage or induce” means in the subsection.
Somewhat recently, we touched upon the issue in Thum.
Amici put quite a bit of stock in our use of a “broad”
definition of “encourage” in Thum, but we agree with
the government that Thum is inconclusive about whether
“encourage” (or “induce”) includes speech.
In Thum, we considered whether the defendant encouraged or induced an alien to reside in the United
States when the defendant escorted an alien from a fast
food restaurant near the San Ysidro Port of Entry—on
the U.S. side of the border—to a nearby vehicle headed
north. 749 F.3d at 1144-45. In interpreting “encourage,” we relied on the general dictionary definition. Id.
at 1147. We also recognized that we “ha[d] previously
equated ‘encouraged’ with ‘helped.’ ” Id. (citing Yoshida,
303 F.3d at 1150). But the main question in that case
was whether the defendant had done enough to encourage the alien to reside in the U.S. Thum, 749 F.3d at
1147. On that point, we agreed with the defendant that

21a
escorting an alien to a van bound for Northern California was at most “aid[ing] in the attempted transportation of the alien, which would be covered under 8 U.S.C.
§ 1324(a)(1)(A)(ii),” and did not “convince the illegal alien to stay in this country . . . or . . . facilitate
the alien’s ability to live in this country indefinitely.”
Id. at 1148 (internal quotation marks and citations omitted). Thum thus stands for the proposition that “[e]ncouraging an illegal alien to reside in the United States
must mean something more than merely transporting
such an alien within this country.” Id. at 1149. 7 We
did not address whether the statute reached speech.
Many other courts have concluded that encourage
can mean “to help.” See United States v. Lopez, 590 F.3d
1238, 1249-52 (11th Cir. 2009) (upholding a supplemental
jury instruction which, in part, defined “encourage” as
“to help”); United States v. Fujii, 301 F.3d 535, 540
(7th Cir. 2002); He, 245 F.3d at 957-58; United States v.
Oloyede, 982 F.2d 133, 135-37 (4th Cir. 1993) (per curiam). However, as mentioned above, none of these
cases considered a First Amendment challenge to Subsection (iv), nor do they foreclose the conclusion that
“encourage or induce” can mean speech. To “help” is
not a helpful limitation in terms of excluding expression,
because speech can help someone decide to enter or to
reside in the United States.
Additionally, the government cites out-of-circuit cases
for the argument that encouraging or inducing “requires
Likewise, Yoshida does not aid our analysis. Yoshida, examining
whether there was sufficient evidence to sustain the defendant’s conviction under Subsection (iv), held only that escorting aliens through
an airport to a United States-bound flight constituted encouragement. Yoshida, 303 F.3d at 1150-51.
7

22a
substantial assistance (or offers of assistance) that the
defendant expects to make an alien lacking lawful immigration status more likely to enter or remain in the
United States than she otherwise would have been.”
For example, in DelRio-Mocci v. Connolly Props. Inc.,
the Third Circuit
read subsection (iv) as prohibiting a person from engaging in an affirmative act that substantially encourages or induces an alien lacking lawful immigration status to come to, enter, or reside in the United
States where the undocumented person otherwise
might not have done so. Thus, subsection (iv) has
the distinct character of foreclosing the type of substantial assistance that will spur a person to commit
a violation of immigration law where they otherwise
might not have.
672 F.3d 241, 249 (3d Cir. 2012) (emphasis added). The
court reasoned that if it interpreted “encourage or induce” too broadly it would “render subsections (i)-(iii)]
redundant or superfluous.” Id. The court thus read
the following elements into what constituted encouragement under Subsection (iv): it must be (1) an affirmative act that (2) substantially encourages (3) an alien
lacking lawful immigration status to (4) come to, enter,
or reside in the United States where (5) the undocumented
person otherwise might not have done so. Id. At least
one other court has adopted the Third Circuit’s interpretation. See United States v. Henderson, 857 F. Supp. 2d
191, 204-08 (D. Mass. 2012).
There is a lot to unpack in this interpretation of the
statute, but at bottom, DelRio-Mocci added an act requirement, a substantiality requirement, and a causation requirement to the text of Subsection (iv). The

23a
Third Circuit adopted the substantiality requirement
from its “harboring” decisions under § 1324(a)(1)(A)(iii),
which hold that a defendant can only be convicted where
his “conduct tend[s] to substantially facilitate an alien’s
remaining in the United States illegally and to prevent
government authorities from detecting the alien’s unlawful presence.” Id. at 246-48 (quoting United States
v. Ozcelik, 527 F.3d 88, 97 (3d Cir. 2008) (internal quotation marks omitted)). The Ninth Circuit, however, does
not have such a precedent and we do not think the statute is reasonably susceptible to this interpretation in the
absence of statutory text to that effect. See Valle del
Sol Inc. v. Whiting, 732 F.3d 1006, 1017 n.9 (9th Cir.
2013) (recognizing that the Ninth Circuit broadly defines
harboring “to mean ‘afford shelter to’ ”) (quoting United
States v. Acosta de Evans, 531 F.2d 428, 430 (9th Cir.
1976)). We therefore reject the government’s proposed
interpretation that “encourage or induce” must mean
an act that provides substantial assistance (or non-deminimis help) to an alien for entering or remaining in
the country.
We also disagree with the Third Circuit that a causation requirement can be read into the statute. On its
face “the plain language of the statute makes clear
that the relevant inquiry is the conduct of the defendant,” and not the alien. See United States v. Dhingra,
371 F.3d 557, 561 (9th Cir. 2004) (rejecting vagueness
and overbreadth challenges to 18 U.S.C. § 2422(b),
which prohibits “knowingly persuad[ing], induc[ing],
entic[ing], or coerc[ing] any individual who has not attained the age of 18 years, to engage in prostitution or
any sexual activity for which any person can be charged
with a criminal offense”).

24a
One district court’s struggle to interpret Subsection
(iv) illustrates our concerns. In Henderson, defendant
was convicted pursuant to Subsection (iv) because she
had “employed a person she came to learn was an illegal
alien to clean her home from time to time and, when
asked, advised the cleaning lady generally about immigration law practices and consequences.” 857 F. Supp.
2d at 193. Considering a post-verdict motion for judgment of acquittal, the district court reviewed the “Developing Appellate Case Law” to determine the scope of
Subsection (iv), and adopted the Third Circuit’s test
from DelRio-Mocci. Id. at 204, 208.
In arguing against the motion, the government took
“the position that giving illegal aliens advice to remain
in the United States while their status is disputed constitutes felonious conduct under § 1324(a)(1)(A)(iv) because it constitutes encouragement or inducement under the statute.” 8 Doubling down, “the government contended that an immigration lawyer would be prosecutable
for the federal felony created by § 1324(a)(1)(A)(iv) if he
advised an illegal alien client to remain in the country
because, if the alien were to leave, the alien could not
return to seek adjustment of status.” Id. at 203.
The district court expressed discomfort with the government’s position and incredulity that the government
would continue to pursue the felony prosecution. See
id. at 193-94, 211-14. However, applying the DelRioMocci test, the district court concluded that “a jury
could find that [defendant’s] employment together with
her [immigration] advice could have caused [the alien],
The defendant in Henderson does not appear to have made an
explicit First Amendment argument.
8

25a
or a person in her position, to reside here when she otherwise might not have.” Id. at 208. The court denied
the motion for acquittal, but granted defendant’s motion
for a new trial in order to give new jury instructions.
Id. at 210, 214.
Despite Henderson, the government now argues that
“[n]o reported decision applies Subsection (iv) to efforts
to persuade, expressions of moral support, or abstract
advocacy regarding immigration.” Even if this were
correct, it misses the point. “[T]he First Amendment
protects against the Government; it does not leave us at
the mercy of noblesse oblige. We would not uphold an
unconstitutional statute merely because the Government promised to use it responsibly.” Stevens, 559 U.S
at 480. Thus, the absence of convictions based purely
on protectable expression is not evidence that the statute does not criminalize speech. Just because the government has not (yet) sought many prosecutions based
on speech, it does not follow that the government cannot
or will not use an overbroad law to obtain such convictions. Further, the lack of convictions says nothing about
whether Subsection (iv) chills speech. Indeed, Henderson exemplifies why we cannot take the government’s
word for how it will enforce a broadly written statute,
and suggests that any would-be speaker who has thought
twice about expressing her views on immigration was
not being paranoid.
3. “An alien”

The government contends that Subsection (iv) is limited to encouraging “a particular alien or aliens,” rather
than “the general public.” For the purposes of this appeal, and to avoid serious constitutional concerns, we

26a
think the government’s proposed interpretation is reasonable, but not ultimately dispositive to our overbreadth
analysis. And while it is easy to foresee arguments
about what constitutes a group of particular aliens versus the “general public,” we accept that Subsection (iv)
requires a defendant to direct his or her encouragement
or inducement toward some known audience of undocumented individuals.
4. “In Violation of Law”

Recognizing the breadth of the statute, the government admits that “in violation of law” refers not only to
criminal law, but also to civil violations of the immigration laws. We agree. Amicus Professor Eugene Volokh argues that we could narrow the scope of the statute by reading “violation of law” to mean only violations
of the criminal law. But, because simple residence in
the United States without legal status is not a crime, and
the statute reaches inducing or encouraging an alien to
“reside” in the United States, the subsection is not susceptible to this limiting construction. See Arizona v.
United States, 567 U.S. 387, 407 (2012) (“As a general
rule, it is not a crime for a removable alien to remain
present in the United States.”). The proposed limiting
construction would render “reside” superfluous.
5. Construction of the Statute

To recap, we interpret Subsection (iv) as follows: to
violate the subsection, a defendant must knowingly encourage or induce a particular alien—or group of aliens
—to come to, enter, or reside in the country, knowing or
in reckless disregard of whether doing so would constitute a violation of the criminal or civil immigration laws.
As construed, “encourage or induce” can mean speech,

27a
or conduct, or both, and there is no substantiality or causation requirement.
Ultimately, the government asks us to rewrite the
statute. Under no reasonable reading are the words
“encourage” and “induce” limited to conduct. We think
the statute is only susceptible to a construction that affects speech. As an illustration—under the government’s reading of the statute, it would argue that a
mother telling an undocumented adult child “If you
leave the United States, I will be very lonely. I encourage you to stay and reside in the country” would not subject the mother to prosecution. But, in this example,
the mother is merely repeating the words of the statute
in an attempt to get her child to stay. We think any
reasonable person reading the subsection would assume
that the mother’s statement makes her vulnerable to
prosecution, that the words of the statute have their
plain meaning, and that a person can encourage or induce another by verbally, explicitly encouraging or inducing her.
B.

Subsection (iv) Restricts Protected Speech

The conclusion that Subsection (iv) reaches speech
does not end our inquiry. We must now examine:
(1) whether the statute reaches protected speech and,
if so, (2) whether the statute restricts a substantial
amount of such speech in relation to the statute’s legitimate sweep. See, e.g., Hicks, 539 U.S. at 118-19.
Not all speech is protected under the First Amendment. Congress is allowed to restrict certain types of
speech, including obscenity, defamation, fraud, incitement, and speech integral to criminal conduct. See Stevens, 559 U.S. at 468. The most relevant exception to

28a
the First Amendment for this case is speech integral to
criminal conduct, but incitement also deserves mention.
The government asserts that even if we interpret
Subsection (iv) to reach speech, it does not constrain
protected speech because the speech is integral to assisting others in violating the immigration laws. In the
government’s reading, Subsection (iv) is analogous to an
aiding and abetting statute. But, to repeat, continuing
to reside in the U.S. is not a criminal offense; therefore,
assisting one to continue to reside here cannot be aiding
and abetting a crime. One amicus, supporting the constitutionality of the statute, reads it as a solicitation
restriction. 9
1. Incitement

Under the incitement exception to the First Amendment, the government may not “proscribe advocacy of
the use of force or of law violation except where such
advocacy is directed to inciting or producing imminent

Amicus Professor Eugene Volokh proposes construing the statute to restrict a defendant from “directly, specifically, and purposefully encouraging” criminal violations of the immigration laws. We
do not think that the statute is reasonably susceptible to this interpretation. First, we decline to read a specificity or directness requirement into the statute because the plain meanings of encourage
and induce do not include such principles. Second, Congress clearly knows how to write a solicitation statute as evidenced by 18 U.S.C.
§ 373(a): “Whoever . . . solicits, commands, induces, or otherwise endeavors to persuade such other person to engage in” a violent
felony is subject to prosecution. If Congress wanted Subsection (iv)
to restrict only solicitation, it could have done so. Finally, as discussed above, we cannot limit “in violation of law” to criminal laws
and, like Professor Volokh, we are not aware of any precedent for
treating speech soliciting merely civil violations as a crime.
9

29a
lawless action and is likely to incite or produce such action.” Brandenburg v. Ohio, 395 U.S. 444, 447 (1969).
“Abstract advocacy,” even of a crime, on the other hand,
is protected speech. See Williams, 553 U.S. at 298-99.
As we have construed Subsection (iv), it does not require
that an alien imminently violate the immigration law.
Nor does Subsection (iv) require that any encouragement or inducement make it “likely” that an alien will
violate the immigration law. Plainly, the incitement
doctrine is a poor fit for this particular statute, especially considering that other incitement cases typically
involve incitements to violence, riot, or breach of the
peace. See, e.g., Brandenburg, 395 U.S. at 447-48; see
also Hess v. Indiana, 414 U.S. 105, 109 (1973); United
States v. Poocha, 259 F.3d 1077, 1080-81 (9th Cir. 2001);
id. at 1084-85 (Tashima, J., concurring in part and dissenting in part) (agreeing that speech must be likely to
incite violence to be proscribed). If Subsection (iv)
reaches any speech that is exempted from the First
Amendment as incitement, it is an extremely narrow
band of speech and does not significantly reduce the
scope of the statute.
2. Speech Integral to Criminal Conduct

The government’s primary argument is that any covered speech is “integral” to a violation of the immigration law. “[S]peech or writing used as an integral part
of conduct in violation of a valid criminal statute” does
not enjoy First Amendment protection. Giboney v.
Empire Storage & Ice Co., 336 U.S. 490, 498 (1949); id.
at 498-502 (picketing for “the sole immediate purpose”
of compelling a company to stop selling to nonunion peddlers was not protected speech because it was part of “a
single and integrated course of conduct” in violation of

30a
criminal restraint of trade laws). For this reason, speech
that aids and abets criminal activity does not necessarily
benefit from First Amendment protection. United
States v. Freeman, 761 F.2d 549, 552 (9th Cir. 1985).
In Freeman, we reviewed “convict[ions] on fourteen
counts of aiding and abetting and counseling violations
of the tax laws, an offense under 26 U.S.C. § 7206(2).”
Id. at 551. We held that the defendant was entitled to
a jury instruction on a First Amendment defense as to
twelve of the counts because, at least arguably, the defendant made statements about the “unfairness of the
tax laws generally.” Id. at 551-52. Conversely, the
defendant was not entitled to the First Amendment instruction on the remaining two counts because the defendant actually assisted in the preparation of false tax
returns. Id. at 552. We reasoned that “[e]ven if the
convictions on these [two] counts rested on spoken
words alone, the false filing was so proximately tied to
the speech that no First Amendment defense was established.” Id. As Freeman illustrates, although some
speech that aids or abets a crime is so integral to the
crime itself that it is not constitutionally protected,
other speech related to criminal activity is not so integral as to be unprotected.
Based on Freeman, the government contends that
any speech that Subsection (iv) reaches is integral to a
violation of the immigration laws. 10 However, there
The government cites Pittsburgh Press Co. v. Pittsburgh Commission on Human Relations, 413 U.S. 376 (1973), but the holding
in that case relies on the since-weakened distinction between commercial and non-commercial speech. See Cent. Hudson Gas &
Elec. Corp. v. Pub. Serv. Comm’n of N.Y., 447 U.S. 557, 562 (1980).
More fundamentally, the defendant in Pittsburgh Press violated an
10

31a
are relevant differences between an aiding and abetting
statute and Subsection (iv). For one, as explained above,
the statute is not limited only to speech that substantially assists an alien in violating the immigration laws.
Freeman exposes the relevant distinction. The statute
in Freeman prohibited “[w]illfully aid[ing] or assist[ing]
in, or procur[ing], counsel[ing], or advis[ing] the preparation or presentation” of false tax returns. 26 U.S.C.
§ 7206(2). On the twelve counts for which the court reversed Freeman’s convictions, the court focused on the
fact that Freeman may have generally advocated the filing of false returns. Id. at 551-52. On the other hand,
for the two convictions that the court affirmed, it emphasized that Freeman “not only counseled but also assisted in the filing of false returns.” Id. at 552 (emphasis added). The assistance on the two affirmed counts,
even if only words, was more directly related to the completed crime. Id. Thus, Freeman’s conclusion is that
only some speech that the statute restricted was so related to the predicate crime that it was considered “inLikewise, here, the statute criminalizes
tegral.” 11
speech beyond that which is integral to violations of the
immigration laws.

ordinance that made it unlawful “to aid” in employment discrimination. 413 U.S. at 389. “Encourage” and “induce” are broader than
“aid,” and sweep in protected speech.
11
Freeman was an as-applied First Amendment challenge to the
false tax returns statute. We note that the string of verbs in the
statute involved in Freeman is more similar to the one at issue in
Williams than the operative verbs in Subsection (iv). See pp. 19-21,
supra.

32a
Second, as the government recognizes, aiding and
abetting convictions require the government to prove
certain elements that are not present in Subsection (iv):
In this circuit, the elements necessary for an aiding
and abetting conviction are: (1) that the accused had
the specific intent to facilitate the commission of a
crime by another, (2) that the accused had the requisite intent of the underlying substantive offense,
(3) that the accused assisted or participated in the
commission of the underlying substantive offense,
and (4) that someone committed the underlying substantive offense.
Thum, 749 F.3d at 1148-49 (quoting United States v.
Shorty, 741 F.3d 961, 969-70 (9th Cir. 2013)). The first
obvious difference is that aiding and abetting requires
the commission of a crime by another, but Subsection
(iv) applies to both criminal and civil violations of the immigration laws. The government asserts that the civil/
criminal distinction should not matter in the First
Amendment context, but points to no case where a defendant was convicted for aiding and abetting a civil offense. We are not aware of any case that upholds a
statute restricting such speech. Therefore, even if certain speech would constitute aiding and abetting when
directed toward the commission of a crime, it would be
constitutionally protected when aimed at inducing a civil
violation of law. And because unauthorized presence in
the country is a civil violation rather than a crime, Subsection (iv) reaches beyond speech integral to a crime.
Next, aiding and abetting requires that the accused
“assisted or participated” in the commission of the offense. For the reasons described above, we cannot
construe Subsection (iv) as applying only to assistance

33a
for or participation in a violation of the immigration law;
it is enough to encourage.
Further, aiding and abetting requires that a principal
actually commit the underlying offense. See id. at
1149. There is no such requirement in Subsection (iv).
The government argues that this should not matter for
the First Amendment analysis because, citing the Model
Penal Code § 2.06(3)(a)(ii), Subsection (iv) resembles an
attempted aiding and abetting statute. The government’s argument fails, however, because “[t]here is no
general federal ‘attempt’ statute. [A] defendant . . .
can only be found guilty of an attempt to commit a federal offense if the statute defining the offense also expressly proscribes an attempt.” United States v. Hopkins, 703 F.2d 1102, 1104 (9th Cir. 1983). Subsection
(iv) does not restrict attempt, unlike the other subsections of the statute.
Most fundamentally, Subsection (iv) looks nothing
like an aiding and abetting statute. Just two lines below Subsection (iv)’s text, Congress required that anyone who “aids or abets the commission of any of the preceding acts” shall be punished as a principal. 8 U.S.C.
§ 1324(a)(1)(A)(v)(II). Further, Congress authored a
general aiding and abetting statute, 18 U.S.C. § 2, which
states that “[w]hoever commits an offense against the
United States or aids, abets, counsels, commands, induces or procures its commission, is punishable as a
principal.” Clearly, if Congress wanted Subsection (iv)
to be an aiding and abetting statute, it would have included the words aiding and abetting. The statute instead manifests Congress’ intent to restrict a broader
range of activity, and that activity stretches beyond
unprotected speech.

34a
C.

Subsection (iv) Restricts A Substantial Amount
of Protected Speech in Relation to its Legitimate
Sweep

Because we conclude that Subsection (iv) reaches
protected speech, we must now analyze whether the
amount of protected speech the statute restricts is substantial in relation to its legitimate sweep. In plain
terms, are the statute’s improper applications too numerous to allow the statute to stand? “The concept of
‘substantial overbreadth’ is not readily reduced to an exact definition.” Members of City Council of L.A. v.
Taxpayers for Vincent, 466 U.S. 789, 800 (1984). But,
“[c]riminal statutes must be scrutinized with particular
care” and “those that make unlawful a substantial amount
of constitutionally protected conduct may be held facially invalid even if they also have legitimate application.” City of Houston v. Hill, 482 U.S. 451, 459 (1987).
Although “substantial” does not have a precise meaning
in this context, the Supreme Court has explained that a
statute may be struck down if it is “susceptible of regular application to protected expression.” Id. at 467.
In other words, “there must be a realistic danger that the
statute itself will significantly compromise recognized
First Amendment protections of parties not before the
Court for it to be facially challenged on overbreadth
grounds.” Taxpayers for Vincent, 466 U.S. at 801.
It is apparent that Subsection (iv) is susceptible to
regular application to constitutionally protected speech
and that there is a realistic (and actual) danger that the
statute will infringe upon recognized First Amendment
protections. Some of the situations raised in the supplemental briefing and at oral argument demonstrate
the improper scope of this statute. While we are aware

35a
that the Supreme Court is skeptical of “fanciful hypotheticals” in overbreadth cases, we do not think that
the scenarios raised here are fanciful. See Williams,
553 U.S. at 301. We think that they are part of everyday discussions in this country where citizens live sideby-side with non-citizens. Buttressing our assessment
that the following hypotheticals are not overly speculative, the government has already shown a willingness to
apply Subsection (iv) to potentially protected speech.
See Henderson, 857 F. Supp. 2d at 193-94, 203-04. 12
We begin with an obvious example from one of the
amicus briefs: “a loving grandmother who urges her
grandson to overstay his visa,” by telling him “I encourage you to stay.” Nothing in Subsection (iv) would prevent the grandmother from facing felony charges for her
statement. Again, in Williams, the Supreme Court

Additionally, the City and County of San Francisco in its amicus
brief represents that the government has repeatedly threatened its
officials with violations of 8 U.S.C. § 1324. For example, “ICE Director Thomas Homan announced that he had asked Attorney General Sessions to determine whether sanctuary cities like San Francisco are ‘committing a statutory crime’ under section 1324.” Further, San Francisco relates that “Director Homan renewed his
threat in even starker terms. According to Director Homan, ‘ when
a sanctuary city intentionally or knowingly shields an illegal alien
from federal law enforcement, that is a violation of 8 U.S.C. 1324.’
Director Homan announced that he was ‘putting together a response
plan’ with ‘the highest levels of the Department of Justice,’ and ominously declared, ‘This is not over.’ ” True, San Francisco reports
that “[t]o the extent these threats have been tied to any specific
prong of section 1324, they have been tied to the ‘harboring’ or
‘transporting’ prongs of that statute.” Id. But not all of the threats
were tied to a specific subsection, and the government might well
turn to Subsection (iv).
12

36a
used almost identical language—“I encourage you to obtain child pornography”—to describe abstract advocacy
immune from government prohibition. 553 U.S. at 300.
The government has not responded persuasively to this
point; it simply argues that the grandmother would not
be subject to criminal charges because her statement was
“not accompanied by assistance or other inducements.”
However, as we have detailed above, Subsection (iv)
does not contain an act or assistance requirement.
Further, implying a mens rea requirement into the
statute, and applying it only to speech to a particular
person does not cure the statute’s impermissible scope.
Just because the grandmother wanted her words to encourage her grandson and said them directly to him does
not render those words less protected under the First
Amendment. We think that situations like this one,
where a family member encourages another to stay in
the country, or come to the country, are surely the most
common form of encouragement or inducement within
Subsection (iv)’s ambit.
The government similarly dismisses “marches,
speeches, publications, and public debate expressing
support for immigrants,” as being subject to Subsection
(iv)’s restrictions. Again, however, the government relies on its faulty construction of the statute to argue that
such speech does not “assist” or “incentivize” an immigrant to come to, enter, or reside in the United States in
violation of law. The statute, however, does not criminalize assistance or incentivizing; it makes it a felony to

37a
“encourage” or “induce.” A speech addressed to a gathered crowd, 13 or directed at undocumented individuals on social media, 14 in which the speaker said something along the lines of “I encourage all you folks out
there without legal status to stay in the U.S.! We are
in the process of trying to change the immigration laws,
and the more we can show the potential hardship on people who have been in the country a long time, the better
we can convince American citizens to fight for us and
grant us a path to legalization,” could constitute inducement or encouragement under the statute. But, this
general advocacy could not be considered incitement because there is no imminent breach of the peace. It
would not be aiding and abetting or solicitation because
it is general and is not advocating a crime. Instead, it
is pure advocacy on a hotly-debated issue in our society.
Such “speech on public issues occupies the highest rung
of the hierarchy of First Amendment values, and is entitled to special protection.” Snyder v. Phelps, 562 U.S.
443, 452 (2011) (quoting Connick v. Myers, 461 U.S. 138,
145 (1983)). Criminalizing expression like this threatens
almost anyone willing to weigh in on the debate. Cf.
Alameda Newspapers, Inc. v. City of Oakland, 95 F.3d
1406, 1414 (9th Cir. 1996) (“Cities, counties, and states
have a long tradition of issuing pronouncements, proclamations, and statements of principle on a wide range of

Speaking directly to a particular group of aliens, as opposed to
the public at large, is within the scope of Subsection (iv) as we have
construed it.
14
The Supreme Court has made clear that “cyberspace . . . .
and social media in particular” is “the most important place[] . . .
for the exchange of views.” Packingham v. North Carolina, 137
S. Ct. 1730, 1735 (2017).
13

38a
matters of public interest, including
tion.”).

. . .

immigra-

Additionally, amici present several examples of professionals who work with immigrants whose speech
might be chilled on account of Subsection (iv)’s breadth.
The most common example cited is an attorney who tells
her client that she should remain in the country while
contesting removal—because, for example, non-citizens
within the United States have greater due process rights
than non-citizens outside the United States, or because,
as a practical matter, the government may not physically remove her until removal proceedings are completed. See Zadvydas v. Davis, 533 U.S. 678, 693 (2001).
Under the statute’s clear scope, the attorney’s accurate
advice could subject her to a felony charge. The government’s arguments to the contrary are unavailing.
First, undoubtedly, the attorney would know that telling
an immigrant she would have greater rights if she remained here or that she may not be removed while in
removal proceedings would encourage the immigrant to
stay. And, we do not think construing Subsection (iv)
to reach advice from attorneys endangers statutes like
18 U.S.C. § 2(a), the general aiding and abetting statute.
An attorney can knowingly encourage a course of action
without aiding or abetting it. Moreover, as we have explained, remaining in the country while undocumented,
without more, is not a crime. More fundamentally,
though, the government has already shown its intent to
prosecute those citizens (attorneys or sympathetic lay
persons) who give even general immigration advice.
See Henderson, 857 F. Supp. 2d at 193.

39a
The foregoing examples are not some parade of fanciful horribles. Instead, they represent real and constitutionally protected conversations and advice that
happen daily. They demonstrate that Subsection (iv)’s
impermissible applications are real and substantial.
Because Subsection (iv)’s legitimate sweep—which only
reaches conduct not criminalized in the other subsections of § 1324(a)(1)(A), and unprotected speech—is narrow, we hold that Subsection (iv) is overbroad under the
First Amendment. 15
CONCLUSION

Subsection (iv) criminalizes a substantial amount of
protected expression in relation to the statute’s narrow
legitimate sweep; thus, we hold that it is unconstitutionally overbroad in violation of the First Amendment.
The judgment of the district court is REVERSED with
respect to the “encourage or induce” counts, Counts 2
and 3 of the First Superseding Indictment. In accordance with the Memorandum disposition filed concurrently herewith, with respect to the mail fraud counts,
Counts 5 and 6, the judgment of the district court is
AFFIRMED.
Because two of the five counts of conviction are reversed, the sentence must be vacated and the case remanded for resentencing. See United States v. Carter,
2018 WL 5726694, at *8 (9th Cir. Nov. 2, 2018); United
States v. Davis, 854 F.3d 601, 606 (9th Cir. 2017).
REVERSED in part, AFFIRMED in part, sentence
VACATED and REMANDED for resentencing.

Because we strike down Subsection (iv) as overbroad, we need not
reach the separate issue of whether the statute is void for vagueness.
15

40a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION

Case No. CR-10-00414-RMW
UNITED STATES OF AMERICA, PLAINTIFF
v.
EVELYN SINENENG-SMITH, DEFENDANT
[Filed: Dec. 23, 2013]
ORDER GRANTING-IN-PART AND DENYINGIN-PART DEFENDANT EVELYN SINENENGSMITH’S MOTION FOR ACQUITTAL AND DENYING
DEFENDANT’S MOTION FOR A NEW TRIAL
[Re:

Docket Nos. 213, 214]

Defendant Evelyn Sineneng-Smith moves for a judgment of acquittal and a new trial with respect to three
counts of violating § 1324(a)(1)(A)(iv) and (b)(i), and
three counts of mail fraud. Dkt. Nos. 213, 214. For
the reasons explained below, the court grants the motion
for judgment of acquittal as to Counts One and Four,
and denies the motion for judgment of acquittal as to
Counts Two, Three, Five, and Six. The court conditionally grants the motion for a new trial as to Counts
One and Four, and denies the motion for a new trial as
to Counts Two, Three, Five, and Six.

41a
I.

BACKGROUND

From approximately 1990 to April 2008, defendant
Evelyn Sineneng-Smith owned and operated an immigration consultation business located in San Jose, California, with additional offices in Beverly Hills, California, La Jolla, California, Las Vegas, Nevada, and New
York, New York. Sineneng-Smith counseled foreign
nationals on applying for and obtaining employment
based visas in order to enable them to work in the residential health care industry. An alien can obtain an
employment-based visa under United States immigration law from the Department of State by filing form
I-485, Application to Register Permanent Residence or
Adjust Status. Certain aliens are ineligible for adjustment of status. However, in 1994, Congress enacted
Section 245(i) of the Immigration and Naturalization
Act, known as the Legal Immigration Family Equity Act
(“LIFE Act”), which permitted certain aliens who were
otherwise ineligible for adjustment of status to pay a
penalty in order to adjust their status without leaving
the United States if the alien was the beneficiary of a
qualifying immigrant visa petition or application for labor certification and met statutory and regulatory requirements before April 30, 2001. The relevant labor
certification application, known as Form ETA-750, is
filed with the United States Department of Labor
(“USDOL”) by the employer seeking to hire the alien.
If the USDOL approves the form, an employer can apply on the alien’s behalf to obtain a visa number and file
an application with the United States Citizenship and
Immigration Services (“USCIS”) called the I-140, Petition for Alien Worker.

42a
Counts one through three each allege that for the
purpose of private financial gain, Sineneng-Smith encouraged or induced an alien to reside in the United States,
knowing or in reckless disregard of the fact that such
residence was in violation of the law. The indictment
lists the initials of each alien, the date he or she entered
into a retainer agreement with the defendant, and the
admission number listed in Form I-94, the record of the
alien’s arrival into the United States. These aliens
have since been revealed to be Oliver Galupo (Counts
One and Four), Amelia Guillermo (Counts Two and
Five), and Hermansita Esteban (Counts Three and Six).
The defendant is also charged with three counts of
mail fraud. In support of those allegations, the superseding indictment alleges that Sineneng-Smith entered
into retainer agreements with foreign nationals, most of
whom entered the United States on visitor’s visas from
the Philippines, and their employers. The superseding
indictment alleges that Sineneng-Smith fraudulently
promoted USDOL’s labor certification program as a
way for foreign nationals to obtain a permanent resident
employment-based visa, while knowing that foreign nationals who did not file petitions with USDOL or USCIS
prior to April 30, 2001 would not be eligible to obtain
employment-based visas. She charged $5,900 for the
filing of an application for a foreign labor certification
with USDOL and $900 for the filing of the I-140 Form
with USCIS—filings that she allegedly knew were futile. Sineneng-Smith also allegedly knew that her clients had overstayed the amount of time they were allowed to be in the United States and worked illegally at
various health care facilities.

43a
On July 30, 2013, after a twelve-day trial, a jury convicted Sineneng-Smith on all six counts. Dkt. No. 195.
Sineneng-Smith now moves the court for a judgment of
acquittal and, in the alternative, for a new trial on all six
counts.
II.

ANALYSIS

Federal Rule of Criminal Procedure 29(c) permits a
court to “set aside the verdict and enter an acquittal” if
the jury has returned a guilty verdict or “[i]f the jury
has failed to return a verdict.” Fed. R. Crim. P. 29(c)(2).
“In ruling on a Rule 29 motion, the relevant question is
whether, after viewing the evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt.” United States v. AlarconSimi, 300 F.3d 1172, 1176 (9th Cir. 2002) (internal quotation marks omitted). The court “must bear in mind
that it is the exclusive function of the jury to determine
the credibility of witnesses, resolve evidentiary conflicts,
and draw reasonable inferences from proven facts.”
United States v. Rojas, 554 F.2d 938, 943 (9th Cir. 1977)
(internal quotation marks omitted); see also AlarconSimi, 300 F.3d at 1176.
As for the new trial motion, Federal Rule of Criminal
Procedure 33 permits the court, on defendant’s motion,
to “vacate any judgment and grant a new trial if the interest of justice so requires.” Fed. R. Crim. P. 33(a).
The court’s power to grant a new trial is broader than
its power to grant a motion for judgment of acquittal because the court “is not obliged to view the evidence in
the light most favorable to the verdict, and it is free to
weigh the evidence and evaluate for itself the credibility
of the witnesses.” United States v. Kellington, 217 F.3d

44a
1084, 1097 (9th Cir. 2000). However, the court’s discretion is not unconstrained. The court may only grant a
new trial if it finds that “the evidence preponderates sufficiently heavily against the verdict that a serious miscarriage of justice may have occurred.” Id. (quoting
United States v. Lincoln, 630 F.2d 1313, 1319 (8th Cir.
1980)).
A.

Sufficiency of the Evidence on the Immigration
Charges

To prove that Sineneng-Smith was guilty under
§ 1324(a)(1)(A)(iv) and (b)(i), the government had to
show beyond a reasonable doubt that (1) the person
identified in the count was an alien; (2) Sineneng-Smith
encouraged or induced the alien to reside in the United
States in violation of the law; (3) Sineneng-Smith knew
that the alien’s residence in the United States was or
would be in violation of the law; and (4) Sineneng-Smith
did so for private financial gain. The parties agree that
a violation of § 1324(a)(1)(A)(iv) is not a continuing offense. Therefore, the government must prove that the
offense was completed on the charged date. However,
as the court ruled in considering the defendant’s motions in limine, “[e]vidence of defendant’s continued encouragement or inducement of the specific clients
charged in the counts is relevant if it tends to prove acts
consistent with the alleged inducement or encouragement such as showing that the inducement or encouragement was carried out.” Dkt. No. 131, at 5.
The defendant did not dispute that Guillermo, Esteban, and Galupo are aliens. The government introduced evidence proving this element as to all three alleged victims. RT: 686:16-17; 688:5-6; Gov’t Exh. 13B;
Gov’t Exh. 14 (as to Guillermo); RT: Vol. 6, 4:19-20; 6:5-8;

45a
Gov’t Exh. 17B (as to Esteban); Gov’t Exh. 10 (as to
Galupo).
It is also undisputed that Sineneng-Smith knew that
Guillermo’s, Esteban’s, and Galupo’s residences in the
United States were in violation of the law. SinenengSmith knew of her clients’ immigration status because
she routinely examined her clients’ passports and visas
and made copies for her files. RT: 1019:2-6. The defendant also admitted to ICE Special Agent Anthony
Villacorta that she knew that “most of [her clients] were
here illegally.” Id. at 1018:24-1019:1. Therefore, the
government presented sufficient evidence from which a
reasonable jury could have found the first and third elements of the immigration charges proven beyond a reasonable doubt.
Finally, there is no dispute that Sineneng-Smith committed the immigration offenses for private financial gain.
The government introduced checks to the defendant written on behalf of Galupo, Gov’t Exh. 11, Esteban, Gov’t
Exh. 19, and Guillermo, Gov’t Exh. 15. Esteban and Guillermo both testified that they paid Sineneng-Smith for
their retainer agreements. RT: Vol. 6, 19:18-23; 30:9-10
(Esteban); RT: 701:12-24; 715:19-24 (Guillermo).
1. Count Two: “Encouragement” as to Guillermo

The defendant argues that the government presented
insufficient evidence for a reasonable jury to find beyond a reasonable doubt that Sineneng-Smith encouraged or induced Guillermo to reside in the United States
in violation of the law. The government in response directs the court to several excerpts of Guillermo’s testimony at trial. In particular, Guillermo testified that

46a
she met with the defendant, the defendant’s staff member, and Guillermo’s employer, Marilyn Santiago, on
April 10, 2002. RT: 693:11-24. At that meeting, Guillermo signed a retainer agreement for Sineneng-Smith
to guide her through the labor certification process, paying Sineneng-Smith $200 per month plus a $500 down
payment for a total of $5,900. Id. at 701:3-5; 12-15; 23-24.
Guillermo testified that she then asked the defendant’s
staff member—apparently while Sineneng-Smith was
present—whether she could work, and the staff member
replied “that’s why you are here.” Id. at 704:9-12.
Shortly after Guillermo’s meeting with the defendant,
she began working for Santiago. Id. at 705:14-18.
Guillermo testified that five years later, Santiago informed her that her labor certification was approved.
RT: 713:22-24. Sineneng-Smith mailed her a retainer
for a Petition for Alien Worker (I-140), which Guillermo
signed on May 5, 2007, the charged date. Id. at 714:14-23;
715:25-716:3. This retainer agreement cost Guillermo
$1,000, and she paid $300 down. Id. at 715:12-24. Santiago signed the agreement on June 20, 2007, and Guillermo mailed the retainer back to Sineneng-Smith. Id.
at 716:12-16; 720:16-20. The government introduced several of Guillermo’s retainer agreements with SinenengSmith into evidence. Gov’t Exh. 13A at 346-47; Gov’t
Exh. 13D; Gov’t Exh. 13F. Along with the retainer
agreement for the Petition for Alien Worker, the government introduced a document from Sineneng-Smith advising Guillermo on a premium processing service for the
Petition for Alien Worker. Gov’t Exh. 13F at 182-83.
This document mentions the possibility of Guillermo receiving a work permit and green card, and the accompanying chart states that the “Next Step if result is Approval” is to “Apply for Work Permit/Green Card.” Id.

47a
From this evidence, a reasonable jury could have
found beyond a reasonable doubt that Sineneng-Smith
encouraged Guillermo to reside illegally in the United
States on May 5, 2007. This court previously held in
denying the defendant’s motion to dismiss that SinenengSmith could “encourage” within the meaning of
§ 1324(a)(1)(A)(iv) “[b]y suggesting to the aliens that the
applications she would make on their behalf, in exchange
for their payments, would allow them to eventually obtain legal permanent residency in the United States.”
Dkt. No. 51, at 4-5. The jury could have concluded that
Sineneng-Smith suggested to Guillermo that, by proceeding with the retainer agreements and various applications, Guillermo would eventually be able to obtain
legal status. While the defendant was present, her employee told Guillermo that the purpose of the meeting
was to allow Guillermo to work in the United States. The
defendant had Guillermo sign and pay for retainer agreements that would purportedly help Guillermo achieve
legal status, when in fact legal status was impossible.
The evidence at trial was sufficient for a reasonable
jury to find that through advertisements in Filipino
newspapers and flyers at residential healthcare facilities, Sineneng-Smith attracted individuals she knew
were working illegally in the United States, promising
them that a successful labor certification and I-140 petition would allow them to obtain legal permanent residency, all the while knowing that without a change in
the law, many of her clients were not allowed to work
even after the labor certification and I-140 were approved. RT: 1018:9-11; 16-18; 1019:19-21; 1020:1-5;
13-18; 1022:9-17. This evidence could have provided the
jury with context for Sineneng-Smith’s specific meeting

48a
with Guillermo, lending credibility to Guillermo’s testimony on her perception of the meeting’s purpose. This
evidence also could have provided context for SinenengSmith’s employee’s “that’s why you are here” statement,
allowing a reasonable jury to find beyond a reasonable
doubt that Sineneng-Smith “encouraged” Guillermo to
reside illegally within the United States on the day
Guillermo signed the Petition for Alien Worker, as prohibited by § 1324(a)(1)(A)(iv).
Sineneng-Smith argues that she never met with
Guillermo or talked to her about the Petition for Alien
Worker. The defendant contends that she merely filed
paperwork for Guillermo. But the jury could have reasonably concluded otherwise. Sineneng-Smith did meet
with Guillermo with respect to the labor certification,
and the documents surrounding the Petition for Alien
Worker indicate that Sineneng-Smith held out her services as a vehicle to obtain a legal work permit and green
card. The evidence shows an ongoing relationship between Guillermo and the defendant, and Guillermo testified repeatedly that she “trusted Evelyn SinenengSmith,” even though Sineneng-Smith was not providing
Guillermo with legal advice. RT: 720:1-9. A reasonable jury could have found beyond a reasonable doubt
that the retainer agreements, meetings, and other documents exchanged by Sineneng-Smith and Guillermo
rose to the level of the defendant “encouraging” Guillermo to reside illegally in the United States.
Sineneng-Smith also argues, with respect to Counts
Two and Three, that the retainer agreements were not
signed until after the charged date, meaning that they
were not in legal effect on the charged date. But this
fact is irrelevant. The government’s allegations are

49a
not based on the legal relationship between the defendant and her clients. In fact, as the defendant repeatedly
asserts, the legal relationship was relatively circumscribed. Instead, the government alleges that SinenengSmith encouraged her clients to reside illegally in the
United States by suggesting to them that the applications she would make on their behalf would allow them
to eventually obtain legal permanent residency in the
United States. In other words, the government’s proof
of encouragement is based on the impression SinenengSmith fostered in her clients that they would be able to
obtain a green card through her services. Having her
clients sign a retainer agreement was the mechanism of
the defendant’s encouragement, but the retainer agreement having immediate legal effect was unnecessary for
encouragement to have occurred.
2. Count Three:

“Encouragement” as to Esteban

Esteban’s testimony at trial tells a similar story
to Guillermo’s. Esteban testified that she met with
Sineneng-Smith on May 13, 2002. RT: Vol. 6 at 8:17-22.
At that meeting, Esteban signed a retainer agreement,
which the government admitted into evidence. Gov’t
Exh. 17A at 245-46. Like Guillermo, Esteban paid the
defendant a $5,900 retainer fee. RT: Vol. 6 at 19:23.
Esteban testified that during the May 13, 2002 meeting,
Sineneng-Smith told her that she “was able to work once
the [labor certification] was filed.” Id. at 11:10-13.
Esteban also testified that, with respect to Esteban’s
ability to remain in the United States, Sineneng-Smith
advised her that “[she] was here in the U.S. and that
[she] could stay here in the U.S.” Id. at 11:14-24. It was
Esteban’s understanding that at the end of the process,
she “would receive a green card.” Id. at 11:25-12:2.

50a
Esteban testified that after the May 13, 2002 meeting,
she began to work at Soquel Leisure Villa. RT: Vol. 6
at 23:4-5. Esteban did not attempt to extend her visa,
which expired on October 12, 2002, because she “thought
that [she] had a petition that had been filed and that that
was [her] way of being legalized.” Id. at 23:7-13. Later,
Esteban testified that she received a letter notifying her
that her labor certification application had been approved.
Id. at 29:3-5. Sineneng-Smith then sent Esteban a retainer agreement for immigrant petition, which Esteban
signed. Id. at 29:11-30:1. As with Guillermo, Esteban
paid $1,000 for this retainer agreement. RT: Vol. 6 at
29:17-23. Esteban testified that she gave the second
retainer agreement, dated June 18, 2007—the charged
date—to her employer to mail to Sineneng-Smith. The
government introduced this retainer agreement, along
with several related documents, into evidence. Gov’t
Exh. 17E.
The evidence as to Esteban is stronger than the evidence as to Guillermo. The jury could reasonably believe Esteban’s testimony that the defendant personally
represented to her that she could stay in the United
States and work while her labor certification was pending. It is uncontested that Sineneng-Smith knew that
Esteban’s continued residence in the United States was
illegal. Thus, based on Esteban’s testimony, a reasonable jury could find beyond a reasonable doubt that
Sineneng-Smith encouraged Esteban to remain in the
United States on the charged date by promising to help
her obtain legal status.

51a
3. Count One:

“Encouragement” as to Galupo

The court finds the evidence presented at trial insufficient as to Galupo. Unlike Esteban or Guillermo, Galupo did not testify at trial, nor did his employer. The
only evidence presented by the government at trial connecting Galupo and Sineneng-Smith was the retainer
agreement for the defendant’s services signed by Galupo. The government argues that the “jury could infer from reviewing Galupo’s June 2, 2005 retainer agreement that the defendant also encouraged him to reside
in the United States.” Gov. Opp. at 6-7. In doing so,
the government wishes to criminalize the signing of a
retainer agreement with an illegal resident in the
United States for the filing of a labor certification on the
alien’s behalf. This simple act, as the defendant argues, is certainly not a violation of § 1324(a)(1)(A)(iv).
Rather, as the court ruled in denying Sineneng-Smith’s
motion to dismiss, encouragement under the statute requires “suggesting to the aliens that the applications
[Sineneng-Smith] would make on their behalf, in exchange for their payments, would allow them to eventually obtain legal permanent residency in the United
States.” Dkt. No. 51, at 4-5. Therefore, to present
sufficient evidence of encouragement, the government
must demonstrate that Sineneng-Smith suggested to
Galupo that the applications she would make on his behalf would potentially lead to legal permanent residency
in the United States.
However, the government has introduced no evidence that Sineneng-Smith made any representations to
Galupo that her services could allow him to obtain legal
permanent residency in the United States. The government presented no testimony concerning statements

52a
made by Sineneng-Smith to Galupo, nor did it introduce
any documentary evidence to that effect. Moreover,
the retainer agreement between Galupo and SinenengSmith by itself is insufficient—on its face, it merely
states that Sineneng-Smith will assist Galupo in attaining a labor certification. The retainer agreement does
not promise that the labor certification can lead to legal
permanent residency for Galupo.
Although the circumstances surrounding the signing
of Galupo’s retainer agreement appear similar to those
of Guillermo and Esteban, the court—and a reasonable
jury—must examine the evidence as to each count separately. If the court were to allow the jury to infer
solely from the retainer agreement that Galupo had an
experience with Sineneng-Smith similar to Guillermo’s
and Esteban’s, it would allow the jury to convict
Sineneng-Smith on Count One based solely on other
crimes she committed. From the government’s presentation of a few otherwise neutral documents from Galupo’s file that are similar to documents found in Guillermo’s and Esteban’s files, the government wished the
jury to infer that the representations the defendant
made to Guillermo and Esteban also were made to Galupo. This sort of inference is prohibited by Fed. R.
Ev. 404(b)(1). And without any evidence that SinenengSmith made any representations at all regarding Galupo’s ability to obtain legal permanent residency, no
reasonable jury could find beyond a reasonable doubt
that Sineneng-Smith encouraged Galupo to reside illegally in the United States.
The government contends that the jury could have
found that once Galupo signed the retainer agreement
with Sineneng-Smith, he had to remain in the United

53a
States so he could work to pay her. This argument
suggests that any person who lends an alien money
could be guilty of violating § 1324(a)(1)(A)(iv). Another
court has held, and the Third Circuit has affirmed, that
an employer does not encourage an alien within the
meaning of § 1324(a)(1)(A)(iv) by hiring an undocumented worker. Zavala v. Wal-Mart Stores, Inc.,
393 F. Supp. 2d 295, 308 (D.N.J. 2005) aff ’d sub nom.
Zavala v. Wal Mart Stores Inc., 691 F.3d 527 (3d Cir.
2012). If actually hiring an alien to work does not constitute “encouragement,” it is certainly not “encouragement” to make an agreement with an alien that, under
the circumstances, requires him to work to pay money
owed under the agreement. Even further, nothing
about simply owing the defendant money required Galupo to live and work in the United States. Galupo could
have sent Sineneng-Smith the money from the Philippines. He could have obtained the money from a generous relative. The government’s argument here fails.
4. Summary:

Immigration Charges

In sum, the evidence presented at trial was sufficient
as to Counts Two (Guillermo) and Three (Esteban), and
insufficient as to the encouragement element of Count One
(Galupo). Sineneng-Smith argues, as she did in her motion to dismiss earlier in this case, Dkt. No. 46, that her
conduct cannot fall within the scope of § 1324(a)(1)(A)(iv),
and that interpreting § 1324(a)(1)(A)(iv) to prohibit the
conduct of which defendant is accused would cause it to
be unconstitutionally vague. But for the reasons stated
above and in the court’s denial of her motion to dismiss,
Dkt. No. 51 at 4-6, the court finds that the conduct
proven as to Counts Two and Three constitutes “encour-

54a
agement” under § 1324(a)(1)(A)(iv), 1 and that this interpretation of § 1324(a)(1)(A)(iv) does not render it unconstitutionally vague or deny Sineneng-Smith fair notice.
Therefore, the court grants the defendant’s motion for
judgment of acquittal as to Count One, and denies it as
to Counts Two and Three. Upon a similar review of the
evidence, but without construing the evidence in the
light most favorable to the government, the court finds
that failing to grant a new trial on Counts Two and
Three would not result in “a serious miscarriage of
justice,” United States v. Kellington, 217 F.3d 1084,
1097 (9th Cir. 2000), so the court accordingly denies
Sineneng-Smith’s motion for a new trial as to Counts

Sineneng-Smith makes the same arguments as before. However, the court will address one argument in particular, as the government further refuted it with evidence presented at trial.
Sineneng-Smith contends that she must be acquitted because there
can be legitimate reasons for someone to file a labor certification or
petition for alien worker. The defendant relies on USCIS Associate Center Director Kurt Gooselaw’s grand jury testimony that individuals have a right to file foreign labor certifications and I-140s,
and that thousands of foreign labor certifications and I-140s for aliens unlawfully present in the United States have been approved.
But the government sufficiently responded to this argument with
Mr. Gooselaw’s trial testimony. Mr. Gooselaw testified that an alien with an approved labor certification and I-140, who is ineligible
for § 245(i) and residing in the United States, is creating an “unlawful presence.” RT: 244:4-11. “That means if they accrue more
than 180 days in less than a year they could be barred from the
United States if they depart. And more than one year unlawful
presence, they depart the United States, they could be barred for
ten years.” Id. at 244:13-16. Therefore, Sineneng-Smith did not
file for labor certifications and I-140s for legitimate reasons, but rather that the defendant harmed her clients by worsening their immigration status.
1

55a
Two and Three. As to Count One, the court conditionally grants Sineneng-Smith’s motion for a new trial.
B.

Sufficiency of the Evidence on the Mail Fraud
Charges

To prove that Sineneng-Smith committed mail fraud,
the government had to show beyond a reasonable doubt
that: (1) Sineneng-Smith knowingly devised and intended to devise a scheme or plan to defraud, or a
scheme or plan for obtaining money by means of false or
fraudulent pretenses, representations, or promises;
(2) the statements made or facts omitted as part of the
scheme were material; (3) Sineneng-Smith acted with
the intent to defraud; and (4) Sineneng-Smith used, or
caused to be used, the mails to carry out or attempt to
carry out an essential part of the scheme. SinenengSmith in her motions for judgment of acquittal and new
trial only contests the first two elements.
The defendant does not dispute that if a scheme to
defraud is found, the mails were used to carry out an essential part of the scheme. As to Count Four, ICE
Special Agent Wendell Wright testified that he discovered a letter dated December 2, 2005 from the defendant
transmitting a Department of Labor Application for
Permanent Employment Certification for Galupo that was
mailed from San Jose, CA to Chicago, IL. RT: 1162:111163:3; see Gov’t Exh. 9E. Special Agent Wright found
a U.S. Postal certified mail receipt with the document.
Id. at 1163:4-7. As to Count Five, Special Agent Wright
testified that he found a letter, dated July 12, 2007,
signed by Sineneng-Smith, and accompanying the I-140
Form for Guillermo, that was mailed from San Jose, CA
to Lincoln, NE. Id. at 1167:16-1168:14; see Gov’t Exh.

56a
13H. Special Agent Wright found a U.S. Postal certified mail receipt with these documents as well. Id. at
1168:15-18. As to Count Six, Esteban testified that she
received a leniency letter dated October 22, 2007 in the
mail from Sineneng-Smith. RT: Vol. 6 27:17-28:6.
Sineneng-Smith also does not appear to dispute that
if a scheme to defraud is found, a reasonable jury could
have concluded beyond a reasonable doubt that she
acted with intent to defraud. The government presented sufficient evidence as to this element. ICE Special Agent Anthony Villacorta testified that SinenengSmith admitted to him that she knew that her clients
could not obtain legal permanent residency through labor certification, that she knew how the § 245(i) legislation operated, and that her clients could not work even
after the labor certification and petition for immigrant
worker were approved. RT: 1020:1-18; 1022:9-14. According to Special Agent Villacorta’s testimony, SinenengSmith explained to him the proper procedure for her clients to be able to legally adjust their immigration status,
which required them to wait in their home country until
they were approved for a work visa to enter the United
States. Id. at 1022:17-1023:8. Sineneng-Smith knew
that she was not following the proper procedure with
her clients. Id. at 1023:5-8. The government also
presented evidence that Sineneng-Smith, through advertisements in Filipino newspapers and flyers at residential healthcare facilities, attracted clients she knew
were working illegally in the United States. Id. at
1018:9-11; 16-18; 1019:19-21. From all of this evidence,
the jury could have reasonably concluded beyond a reasonable doubt that Sineneng-Smith acted with intent to
defraud.

57a
1. A Scheme or Plan to Defraud

“Proof of an affirmative, material misrepresentation
supports a conviction of mail fraud” without any additional
proof of a fiduciary duty to the victim. United States v.
Benny, 786 F.2d 1410, 1418 (9th Cir. 1986). However,
“[a] defendant’s activities can be a scheme or artifice to
defraud whether or not any specific misrepresentations
are involved.” United States v. Halbert, 640 F.2d 1000,
1007 (9th Cir. 1981) (citing United States v. Bohonus,
628 F.2d 1167 (9th Cir. 1980); Lustiger v. United States,
386 F.2d 132, 138 (9th Cir. 1967); Lemon v. United
States, 278 F.2d 369, 373 (9th Cir. 1960)). In addition,
“deceitful statements of half truths or the concealment
of material facts is actual fraud violative of the mail
fraud statute. . . . [T]he deception need not be premised upon verbalized words alone. The arrangement of
the words, or the circumstances in which they are used
may convey the false and deceptive appearance.” United
States v. Woods, 335 F.3d 993, 998 (9th Cir. 2003) (citing
Lustiger, 386 F.2d at 138). Note also that “materiality
of falsehood is an element of the federal mail fraud, wire
fraud, and bank fraud statutes.” Neder v. United States,
527 U.S. 1, 25 (1999).
The government alleges that Sineneng-Smith misled
Guillermo, Esteban, and Galupo into believing that they
could achieve legal permanent residency via the defendant’s services. The relevant inquiry, then, is whether,
as to each alleged victim, the government presented sufficient evidence from which a reasonable jury could conclude beyond a reasonable doubt that Sineneng-Smith
engaged in a scheme to defraud by creating the false impression that her client could achieve legal permanent
residency. The government must also have introduced

58a
sufficient evidence from which a jury could conclude
that the falsehood was material. The court finds that
the government upheld its burden with respect to Count
Five (Guillermo) and Count Six (Esteban), but not as to
Count Four (Galupo). Sineneng-Smith’s motion for judgment of acquittal is therefore denied as to Counts Five
and Six and granted as to Count Four.
2. Count Five:

Scheme to Defraud as to Guillermo

The relevant facts for the mail fraud charge are similar to the facts for the immigration charge. Guillermo
testified that she met Sineneng-Smith on April 10, 2002.
RT: 693:11-24. There, Guillermo sat at a table with Santiago (her employer), the defendant, and the defendant’s
staff member. Id. At the meeting, Guillermo signed
a retainer agreement for Sineneng-Smith to assist her
in “obtain[ing] permanent residence through Labor Certification.” Gov’t Exh. 13A at 346-47. Guillermo testified
that she asked the defendant’s staff member whether
she could work, and the staff member replied “that’s
why you are here.” RT: 704:9-12.
Guillermo testified that she began working for Santiago about a month after the meeting, on May 5, 2002.
RT: 705:14-18. Guillermo also testified that she received a number of leniency letters from SinenengSmith. Id. at 706:16-25. The letters indicated that
Guillermo was “taking steps to legalize his / her immigration status in the United States,” and they were addressed to various state and federal agencies. Gov’t
Exh. 13C. Eventually, Santiago told Guillermo that her
labor certification had been approved. RT: 713:22-24.
Shortly thereafter, Sineneng-Smith sent Guillermo a retainer for an I-140, which Guillermo signed. Id. at
714:14-23; 715:25-716:3. Guillermo testified that she

59a
also paid a $300 down payment on the retainer agreement’s $1,000 total cost. Id. at 715:12-24. As described in the section on Count Two, Guillermo testified
that she signed a document on “premium processing.”
Gov’t Exh. 13F at 182-83. This document mentions the
possibility of Guillermo receiving a work permit and
green card, and the accompanying chart states that the
“Next Step if result is Approval” is to “Apply for Work
Permit /Green Card.” Id.
Sineneng-Smith, contending that the evidence only
reveals material omissions, argues that “a non-disclosure
can only serve as a basis for a fraudulent scheme when
there exists an independent duty that has been breached
by the person so charged.” United States v. Dowling,
739 F.2d 1445, 1449 (9th Cir. 1984), rev’d on other grounds,
473 U.S. 207 (1985). But the evidence introduced at
trial establishes that the defendant’s statements to
Guillermo are better characterized as half-truths, or
even as being affirmatively misleading. Various different documents suggested that Guillermo could obtain a
green card, and the defendant’s staff member indicated
to Guillermo that following Sineneng-Smith’s advice
would allow Guillermo to legally work in the United
States. A jury could have reasonably concluded from
the evidence that Sineneng-Smith intentionally led
Guillermo to believe that Guillermo could obtain legal
permanent residency.
Finally, the government presented unequivocal evidence of materiality. Guillermo testified that if the defendant told her that she could not obtain a green card,
she would have gone home. RT: 796:17-19. Guillermo
reasonably relied on Sineneng-Smith’s representations

60a
that Guillermo could obtain a green card. The evidence
introduced at trial was sufficient as to Count Five.
3. Count Six:

Scheme to Defraud as to Esteban

As Esteban’s testimony was detailed in the section on
Count Three, and the testimony was largely similar to
Guillermo’s, the court will only highlight a few key facts.
Esteban testified that when she met with SinenengSmith, the defendant told her “to trust her because she
studied law, and that her office was trustworthy, and
that there were many people whose petitions had been
approved.” RT: Vol. 6, 10:11-16. Esteban believed that
at the end of the process, she “would receive a green
card.” Id. at 11:25-12:2. Esteban signed a retainer
agreement with similar language to the one Guillermo
signed. The agreement stated that “Evelyn SinenengSmith, has been retained by me Hermansita Esteban
(alien) for the purposes of assisting me (alien), to obtain
permanent residence through Labor Certification.”
Gov’t Exh. 17A at 245-46. Esteban testified that after the
meeting, she was under the impression that her petition
“was [her] way of being legalized.” RT: Vol. 6, 23:7-13.
As a result, Esteban did not extend her visa. Id.
Esteban testified that, like Guillermo, she received leniency letters “almost every month.” RT: Vol 6, 25:19-20;
Gov’t Exh. 17C. The leniency letters stated that “[t]his
alien is taking steps to legalize his / her immigration status in the United States,” again indicating to Esteban
that she was going through the process to achieve legal
permanent residency. Gov’t Exh. 17C. The government also admitted status letters sent by Sineneng-Smith
to Esteban. These letters told Esteban to “[p]lease be
patient and cooperate with us so that we will be successful in obtaining your permanent residency in the United

61a
States.” Gov’t Exh. 17C. Esteban later signed a retainer agreement for Sineneng-Smith to assist her in filing
a Petition for Alien Worker. Gov’t Exh. 17E at 42-43.
The record is replete with explicit misrepresentations made to Esteban. A reasonable jury could have
found beyond a reasonable doubt that Sineneng-Smith’s
repeated allusions to Esteban attaining legal status or
permanent residency fraudulently misled Esteban into
believing that she could obtain a green card, when in fact
it was impossible. Esteban’s testimony demonstrates
that Esteban assumed she was taking the proper steps
to achieve legal permanent residency, and that SinenengSmith’s actions were instrumental in forming this belief.
Unlike the defendant contends, this count is not based
purely on an omission. Rather, Sineneng-Smith’s affirmative statements to Esteban in person and through retainer agreements and letters misled Esteban.
As to materiality, although the government does not
point to an express statement from Esteban that she
would not have reasonably retained Sineneng-Smith had
Esteban known that she was ineligible for a green card,
the jury could reasonably infer materiality beyond a
reasonable doubt based on all of Esteban’s testimony
detailing her belief that she could work and reside in the
United States while proceeding to obtain a green card.
The court therefore denies the defendant’s motions with
respect to Count Six.
4. Count Four:

Scheme to Defraud as to Galupo

As mentioned in the section on Count One, Galupo did
not testify at trial. The government directs the court
to two documents introduced at trial to support the jury’s
verdict: Galupo’s retainer agreement, Gov’t Exh. 9 at

62a
189-91, and a chart entitled “The Road to Obtaining Permanent Residence is a Rocky and Frustrating Road,”
Gov’t Exh. 9 at 195. Because the government cannot
demonstrate that Sineneng-Smith engaged in a scheme
to defraud Galupo, the court grants the defendant’s motion for judgment of acquittal as to Count Four.
The government highlights the first line of Galupo’s
retainer agreement, which reads “This will acknowledge
that Evelyn Sineneng-Smith has been retained by me
Oliver Galupo (alien worker) for purposes of assisting
me to obtain my Labor Certification thru PERM.” Nothing about this statement is misleading. It does not suggest that Galupo will receive legal status or a green card.
Not only is it apparently true that Galupo retained
Sineneng-Smith, but the government does not contend
that Galupo could not have obtained a labor certification.
The government also points to an addendum to the
retainer agreement: “As of today, 245i was not renewed,
but Congress may reintroduce 245i during their next
session.” The government argues that a “jury could
find that the statement is misleading because it does not
provide an explanation of what 245(i) [sic] and speculates that Congress may take action.” Dkt. No. 218 at
15-16. If anything, this addendum is more consistent
with full disclosure than with misrepresentation. In
adding this language, Sineneng-Smith made only truthful statements. These truthful statements disclosed
the current state of the law to Galupo. Because there
is no evidence as to what either Sineneng-Smith or Galupo said at the time the retainer agreement was signed,
there is insufficient evidence from which a reasonable
jury could find that the defendant should have explained
what § 245(i) is or that she should have told Galupo that

63a
he was ineligible for a green card. In fact, because
there is a lack of evidence, it is reasonable to conclude
that Sineneng-Smith may have told Galupo that, without
a change in the law, he could not obtain a green card.
No reasonable jury could conclude beyond a reasonable
doubt from the retainer agreement that Sineneng-Smith
misled Galupo.
The analysis as to the “Rocky and Frustrating Road”
chart is similar. This chart indicates that attaining a
work permit and green card may be possible, but that it
is a difficult and “frustrating” process. Gov’t Exh. 9 at
195. Under the portion of the chart mentioning a work
permit and green card, a note reads “If applicable,
245i effective here.” Again, because the government
presented no evidence of the discussion surrounding
this chart, there was no evidence from which a jury could
conclude that Sineneng-Smith did or did not represent
to Galupo that he could obtain a green card. The only
evidence that the government showed the jury was the
chart itself, without any context. No reasonable jury
could find beyond a reasonable doubt based on this ambiguous chart that Sineneng-Smith engaged in a scheme
to defraud Galupo.
Taken together, the retainer agreement and chart
fare no better. As both documents specially mention
§ 245(i), Sineneng-Smith may have highlighted the issue
rather than concealed it. The government introduced
no testimony concerning the meeting, nor did the jury
have any context for how the defendant presented these
two documents to Galupo.
Furthermore, even if a reasonable jury could accept
beyond a reasonable doubt that the retainer agreement
and the “Rocky and Frustrating Road” chart proved a

64a
scheme to defraud, the government could not prove that
the falsehood was material. Without any testimony as
to Galupo’s motives for retaining Sineneng-Smith, the
government presented no evidence that Galupo even intended to pursue a green card. Any conclusion that
Galupo would not have reasonably retained SinenengSmith had he known that he was ineligible for legal permanent residency would have been based on pure speculation, much less evidence beyond a reasonable doubt.
The evidence as to Galupo is clearly insufficient.
5. Summary:

Mail Fraud Charges

In sum, the evidence presented at trial was sufficient
as to Counts Five (Guillermo) and Six (Esteban), and insufficient as to the scheme to defraud and materiality
elements of Count Four (Galupo). Therefore, the court
grants the defendant’s motion for judgment of acquittal
as to Count Four, and denies it as to Counts Five and
Six. Upon a similar review of the evidence, but without
construing the evidence in the light most favorable to
the government, the court finds that failing to grant a
new trial on Counts Five and Six would not result in “a
serious miscarriage of justice,” United States v. Kellington, 217 F.3d 1084, 1097 (9th Cir. 2000), so the court accordingly denies Sineneng-Smith’s Motion for a new
trial as to Counts Five and Six. As to Count Four, the
court conditionally grants Sineneng-Smith’s motion for
a new trial.
C.

Entrapment by Estoppel

Sineneng-Smith argues that the government is estopped from prosecuting her for the act of being hired
to do immigration consultant work. But, as the court

65a
stated in addressing this same assertion in the defendant’s motion to dismiss, Sineneng-Smith is not being
prosecuted for the act of being hired to do immigration
consultant work. “She is being prosecuted for allegedly entering into allegedly retainer agreements with illegal aliens, accepting payment from aliens and representing to aliens that her efforts would enable them to
become legal permanent residents when she knew that
they could not. That conduct, if proven, would be illegal under § 1324(a)(1)(A)(iv).” Dkt. No. 51 at 6.
D.

First Amendment Arguments

Sineneng-Smith contends that her conviction on the
immigration charges violates her rights under the Petition Clause and Free Speech Clause of the First Amendment. The defendant makes the same arguments here
—almost verbatim—as she made in her motion to dismiss. See Dkt. No. 46 at 20-25. For the same reasons
as the court expressed in its order denying SinenengSmith’s motion to dismiss, it rejects the defendant’s contentions here. Dkt. No. 51 at 6.
E.

Objections to Evidence and Jury Instructions
1. Scheme Evidence and Relevant Time Period

The court previously considered and rejected the defendant’s arguments to exclude evidence of mail fraud
based on a scheme mail fraud theory in its Rulings on
Defendant’s Motions In Limine I-IV. Dkt. No. 131.
The court denied the defendant’s motion in limine to exclude evidence based on a scheme mail fraud theory because Sineneng-Smith’s arguments all rested on the erroneous premise that the scheme is not relevant to establish liability for the three specific counts charged.

66a
Id. at 1-3. The summary witnesses’ testimony was relevant to the existence and scope of the charged offenses,
and the witnesses properly laid foundation for each of
the summary charts introduced under Federal Rule of
Evidence 1006. For the reasons stated here and those
given in the order on the defendant’s motions in limine,
Sineneng-Smith is not entitled to a new trial based on
the court’s allowance of this evidence.
2. La Jolla Recording and Ramelb Testimony

The court also previously considered and rejected
Sineneng-Smith’s arguments as to the La Jolla recording and ICE Special Agent Ramelb testimony in its Rulings on Defendant’s Motions In Limine I-IV. Dkt. No.
131. As Special Agent Ramelb sufficiently authenticated the recording in his testimony at trial, RT: 1097:5-6;
1098:17-24; 1099:1-4; 1100:23-25; 1101:19-21; 1102:11-20;
1103:1-11, and the defendant concedes that her arguments here are the same as in the motion in limine, the
court concludes that Sineneng-Smith is not entitled to a
new trial based on the court’s allowance of this evidence.
3. Vicarious Liability Instruction

The court has previously denied the defendant’s request for a vicarious liability instruction. The government did not rely upon a vicarious liability theory, and
the evidence the government offered from SinenengSmith’s employees was limited to conduct within the scope
of the employees’ agency as proscribed by SinenengSmith.

67a
III.

ORDER

For the above stated reasons, the court grants defendant Evelyn Sineneng-Smith’s motion for judgment
of acquittal as to Counts One and Four. The motion for
judgment of acquittal is denied as to Counts Two, Three,
Five, and Six. The motion for a new trial is conditionally granted as to Counts One and Four, and denied as
to Counts Two, Three, Five, and Six.
Dated:

Dec. 23, 2013
/s/ RONALD M. WHYTE
RONALD M. WHYTE
United States District Judge

68a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION

No. CR-10-00414 RMW
UNITED STATES OF AMERICA, PLAINTIFF
v.
EVELYN SINENENG-SMITH, DEFENDANT
Filed: Oct. 12, 2011
ORDER DENYING MOTION TO DISMISS COUNTS
ONE THROUGH THREE, NINE, TEN, AND
THE FORFEITURE ALLEGATIONS OF THE
SUPERSEDING INDICTMENT
[Re Docket No. 46]

Defendant Evelyn Sineneng-Smith moves to dismiss
counts one through three, counts nine and ten, and the
forfeiture allegations of the superseding indictment
filed against her. The counts in question allege violations of 8 U.S.C. § 1324(a)(1)(A)(iv) and (B)(I), which impose criminal liability and penalties on any person who
“encourages or induces an alien to come to, enter, or reside
in the United States, knowing or in reckless disregard of
the fact that such coming to, entry, or residence is or will
be in violation of the law. . . . ” For the reasons set
forth below, the court denies the motion to dismiss.

69a
I.

BACKGROUND 1

From approximately 1990 to April 2008, defendant
Evelyn Sineneng-Smith owned and operated an immigration consultation business located in San Jose, California, with additional offices in Beverly Hills, California, La Jolla, California, Las Vegas, Nevada, and New
York, New York. Sineneng-Smith counseled foreign
nationals on applying for and obtaining employmentbased visas in order to enable them to work in the residential health care industry.
An alien can obtain an employment-based visa under
United States immigration law from the Department of
State by filing form I-485, Application to Register Permanent Residence or Adjust Status. Certain aliens are
ineligible for adjustment of status. However, in 1994,
Congress enacted Section 245(i) of the Immigration and
Naturalization Act, known as the Legal Immigration
Family Equity Act (“LIFE Act”), which permitted certain aliens who were otherwise ineligible for adjustment
of status to pay a penalty in order to adjust their status
without leaving the United States if the alien was the
beneficiary of a qualifying immigrant visa petition or application for labor certification and met statutory and
regulatory requirements before April 30, 2001. The
relevant labor certification application, known as Form
ETA-750, is filed with the United States Department of
Labor (“USDOL”) by the employer seeking to hire the
alien. If the USDOL approves the form, an employer
can apply on the alien’s behalf to obtain a visa number

Unless otherwise noted, background facts are taken from the superseding indictment.
1

70a
and file an application with the United States Citizenship and Immigration Services (“USCIS”) called the
I-140, Petition for Alien Worker.
Counts one through three each allege that for the
purpose of private financial gain, Sineneng-Smith encouraged or induced an alien to reside in the United
States, knowing or in reckless disregard of the fact that
such residence was in violation of the law. The indictment lists the initials of each alien, the date he or she
entered into a retainer agreement with the defendant,
and the admission number listed in Form I-94, the record of the alien’s arrival into the United States.
The defendant is also charged with three counts of
mail fraud. In support of those allegations, the superseding indictment alleges that Sineneng-Smith entered
into retainer agreements with foreign nationals, most of
whom entered the United States on visitor’s visas from
the Philippines, and their employers. The superseding
indictment alleges that Sineneng-Smith fraudulently
promoted USDOL’s labor certification program as a
way for foreign nationals to obtain a permanent resident
employment-based visa, while knowing that foreign nationals who did not file petitions with USDOL or USCIS
prior to April 30, 2001 would not be eligible to obtain
employment-based visas. She charged $5,900 for the
filing of an application for a foreign labor certification
with USDOL and $900 for the filing of the I-140 Form
with USCIS–filings that she allegedly knew were futile.
Sineneng-Smith also allegedly knew that her clients had
overstayed the amount of time they were allowed to be
in the United States and worked illegally at various
health care facilities.

71a
II.
A.

ANALYSIS

Motion to Dismiss

Under Rule 12(b) of the Federal Rules of Criminal
Procedure, a party may file a motion to dismiss based on
“any defense, objection, or request that the court can
determine without a trial of the general issue.” Fed. R.
Crim. P. 12(b); United States v. Shortt Accountancy
Corp., 785 F.2d 1448, 1452 (9th Cir. 1986). In considering
a motion to dismiss, the court is limited to the face of the
indictment and must accept the facts alleged in the indictment as true. Winslow v. United States, 216 F.2d
912, 913 (9th Cir. 1955).
B.

The Scope of the Charged Statute

Section 1324(a)(1)(A) provides:
Bringing in and harboring certain aliens
(a) Criminal penalties.
(1) (A) Any person who—
. . . .
(iv) encourages or induces an alien to come
to, enter, or reside in the United States,
knowing or in reckless disregard of the fact
that such coming to, entry, or residence is or
will be in violation of the law.
Section 1324(a)(1)(B)(I) sets the penalty when such
conduct was done for commercial purposes or private
financial gain.
The primary issue raised in the motion is whether defendant “encourage[d]” illegal aliens to continue to re-

72a
side in the United States within the meaning of the statute by encouraging or inducing illegal aliens and their
employers to pay her to pursue what she knew were
hopeless applications for permanent residency. Defendant submitted no false information to USDOL or USCIS.
A number of courts have considered the meaning of “encourages” under § 1324(a)(1)(A)(iv).
In United States v. Oloyede, 982 F.2d 133 (4th Cir.
1992), defendants had been convicted of a scheme to defraud the INS by falsifying documents for citizenship
applications for illegal aliens already residing in the
United States. Analyzing the meaning of “encourage”
in a predecessor statute to § 1324(a)(1)(A)(iv), the court
compared the language of that statute’s predecessor
statute, which had only proscribed conduct that encouraged “entry into the United States.” It explained:
IRCA [Immigration Reform and Control Act] worked
a substantial expansion in the types of activities held
criminal under this statute. IRCA’s plain language
distinguishes between these distinct categories of behavior and indicates that “encouraging” is not limited
to bringing in, transporting or concealing illegal aliens. Rather, “encouraging” relates to actions taken
to convince the illegal alien to come to this country or
to stay in this country. Appellants’ actions reassured their clients that they could continue to work
in the United States, that they would not be subject
to the threat of imminent detection and deportation,
and that they could travel back to their homeland
without risk of being prevented from returning, thus
providing all the benefits of citizenship. The selling

73a
of fraudulent documents and immigration papers under these circumstances constitutes “encourages” as
that word is used in the statute.
Id. at 137 (emphasis added).
In United States v. Ndiaye, 434 F.3d 1270, 1296
(11th Cir. 2006), the Eleventh Circuit held that the defendant had encouraged and induced an illegal alien to
reside in the United States by helping him fraudulently
obtain a Social Security number. The court explained
that the defendant “may not have encouraged or induced
an alien to come to or enter the United States, but a jury
could have found that he encouraged or induced an alien
. . . to reside in the United States, knowing it was in
violation of the law. This violates the plain language of
the statute.”
Sineneng-Smith argues that her case is unlike Oloyede,
Ndiaye, or other cases upholding convictions under the
subject statute because she is not accused of helping aliens to obtain a benefits to which the aliens were not entitled. But the plain language of the statute imposes no
requirement that the “encouragement” be accomplished
through conduct that involves fraud against the United
States. Here, the victims of defendant’s alleged scheme
were the aliens themselves. By suggesting to the aliens
that the applications she would make on their behalf, in
exchange for their payments, would allow them to eventually obtain legal permanent residency in the United
States, Sineneng-Smith encouraged the aliens to remain
in the country within the meaning of § 1324(a)(1)(A)(iv).
Indeed, the fact that she is accused of defrauding the aliens themselves, as opposed to the federal government,
more strongly supports the conclusion the SinenengSmith encouraged or induced the aliens to remain in the

74a
United States than if she had merely assisted the aliens
in obtaining fraudulent documents. The promise of a
path to legal permanent residency that Sineneng-Smith
held out to the alleged victims of her scheme was plainly
powerful encouragement to those aliens to set up a life
in the United States.
Sineneng-Smith cites the unreported district court
decision in Hagar v. ABX Air, Inc., 2008 WL 819293
(S.D. Ohio Mar. 25, 2008) for the proposition that merely
employing an illegal alien does not constitute “encourag[ing]” or “induc[ing]” an alien to reside in the United
States in violation of § 1324(a)(1)(A)(iv). That court
held that “at a minimum the defendant must take some
affirmative act to assist an alien to enter or remain in
the United States” and that allegations that the defendants knowingly hired unauthorized aliens did not allege
affirmative conduct that constituted encouraging or inducing. Id. Hagar appears questionable to the extent that it implies that the statute requires that a person actually assist the alien as opposed to merely encouraging the alien. The fact that Sineneng-Smith may
not have assisted her clients to remain in the United
States does not mean that she did not wrongfully encourage or induce them to continue to reside in the United
States. The facts alleged demonstrate that she did.
In addition, interpreting § 1324(a)(1)(A)(iv) to prohibit the conduct of which Sineneng-Smith is accused
does not cause the statute to be impermissibly vague.
“To satisfy due process, ‘a penal statute [must] define
the criminal offense [1] with such definiteness that ordinary people can understand what conduct is prohibited
and [2] in a manner that does not encourage arbitrary
and discriminatory enforcement.’ ” Skilling v. United

75a
States, 130 S. Ct. 2896, 2927-27 (2010) (quoting Koleder
v. Lawson, 461 U.S. 352, 357 (1983)). Sineneng-Smith
argues that she is being prosecuted “for the simple act
of being hired to provide immigration consultancy services to an unlawful alien.” (Mot. at 14.) In fact, she
is being prosecuted for allegedly fraudulently entering
into retainer agreements by which she represented to
illegal aliens that she would pursue a viable path to legal
permanent residency on their behalf, when she knew
that the aliens she represented could not become legal
permanent residents. As explained above, that conduct falls within the plain meaning of the statute, and
an ordinary person would have understood that such
conduct is prohibited. Defendant cites a number of cases
involving the infamous honest services statute, 18 U.S.C.
§ 1346, but does not explain how 1324(a)(1)(A)(iv) resembles that statute in vagueness or novelty of application.
The mere fact that there have been no prior cases directly on point does not mean that Sineneng-Smith did
not have notice that her conduct was prohibited.
Similarly, Sineneng-Smith does not accurately describe the charges against her in her argument that she
lacked notice because she relied on numerous USDOL
and USCIS approvals of applications or that her First
Amendment rights have been violated. She is not being prosecuted for making applications to the USDOL
or USCIS. She is being prosecuted for allegedly entering into allegedly retainer agreements with illegal aliens, accepting payment from aliens and representing to
aliens that her efforts would enable them to become legal permanent residents when she knew that they could
not. That conduct, if proven, would be illegal under
§ 1324(a)(1)(A)(iv).

76a
The parties agreed that the ruling on counts one
through three dictate the outcome on counts nine and
ten and the forfeiture allegations.
III.

ORDER

For the foregoing reasons, the court denies defendant’s motion.
DATED:

10/11/2011
/s/ RONALD M. WHYTE
RONALD M. WHYTE
United States District Judge

77a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 15-10614
DC No. 5:10 CR-0414 RMW
ND Cal., San Jose
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
EVELYN SINENENG-SMITH, DEFENDANT-APPELLANT
[Filed: Feb. 12, 2019]
ORDER

Before:
Judges.

TASHIMA, BERZON, and HURWITZ, Circuit

Plaintiff-Appellee has filed a petition for rehearing
en banc. [Dkt. 119] Defendant-Appellant has filed a
petition for panel rehearing and for rehearing en banc.
[Dkt. 120] The panel has voted to deny the petition for
panel rehearing. Judges Berzon and Hurwitz vote to
deny both petitions for rehearing en banc, and Judge
Tashima so recommends. The full court has been advised of the petitions for rehearing en banc and no judge
of the court has requested a vote on en banc rehearing.
See Fed. R. App. P. 35(f ).
The petition for panel rehearing and the petitions for
rehearing en banc are DENIED.

78a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

USDC Case Number: CR-10-10-00414-001 RMW
BOP Case Number: DCAN510CR00414-001
USM Number: 13393-111
UNITED STATES OF AMERICA
v.
EVELYN SINENENG-SMITH
[Filed: Dec. 17, 2015]
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:

�

pleaded guilty to counts:

7&8

Đ pleaded nolo contendere to count(s):
was accepted by the court.

Đ was found guilty on count(s):
of not guilty.

which
after a plea

79a
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense Ended

18 U.S.C. Encourage and June 18, 2007
§ 1324
Inducing Illegal Immigration for Private
Financial Gain
18 U.S.C. Mail Fraud
§ 1341

Count

2-3

October 22, 2007 5-6

18 U.S.C. Willfully Sub- October 15, 2004 7-8
§ 7206(1) 1 scribing to a
False Tax Return
The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.

�

The defendant has been found not
counts: 2, 3, 5 & 6

2

guilty on

Đ Count(s)

is/are dismissed on the motion of
the United States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days of
any change of name, residence, or mailing address until

1
2

So in the original.
So in the original.

80a
all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court and
United States attorney of material changes in economic
circumstances.
12/14/2015
Date of Imposition of Judgment
/s/

RONALD M. WHYTE
Signature of Judge
The Honorable RONALD M. WHYTE
Senior United States District Judge
Name & Title of Judge
[12/14/2015]
Date

81a
IMPRISONMENT

The defendant is hereby committed to the custody of the
United States Bureau of Prisons to be imprisoned for a
total term of:
18 months on each of Counts Two, Three, Five, Six,
Seven and Eight, all Counts to run concurrently.

�

The Court makes the following recommendations to
the Bureau of Prisons:
The defendant be housed in minimal level custody.
BOP recognize that the defendant is from the San
Francisco Bay Area.

Đ

The defendant is remanded to the custody of the
United States Marshal. The appearance is hereby
exonerated.

Đ

The defendant shall surrender to the United States
Marshal for this district:
Đ at
pm).

am/pm on

(no later than 2:00

Đ as notified by the United States Marshal.
The appearance bond shall be deemed exonerated
upon the surrender of the defendant.

�

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:

�

at 2:00 pm on 3/16/2016 (no later than 2:00 pm).

Đ as notified by the United States Marshal.
Đ as notified by the Probation or Pretrial Services
Office.

82a
The appearance bond shall be deemed exonerated
upon the surrender of the defendant.
RETURN

I have executed this judgment as follows:
Defendant delivered on
to
, with a certified copy of this judgment.

at

UNITED STATES MARSHAL
By

DEPUTY UNITED STATES MARSHAL

83a
SUPERVISED RELEASE

Upon release from imprisonment, the defendant shall be
on supervised release for a term of: Three years.
This term consists of three years on each of Counts Two,
Three, Five and Six, and one year on Counts Seven and
Eight, all Counts to run concurrently.
The defendant must report to the probation office in the
district to which the defendant is released within 72 hours
of release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or
local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.

�

The above drug testing condition is suspended,
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)

�

The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon. (Check, if applicable.)

�

The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check,
if applicable.)

Đ

The defendant shall comply with the requirements of
the Sex Offender Registration and Notification Act
(42 U.S.C. § 16901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex

84a
offender registration agency in which he or she resides, works, is a student, or was convicted of a qualifying offense. (Check, if applicable.)

Đ

The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a
condition of supervised release that the defendant pay
in accordance with the Schedule of Payments sheet of
this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with
any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION

1)

The defendant shall not leave the judicial district
without the permission of the court or probation officer;

2)

The defendant shall report to the probation officer
and shall submit a truthful and complete written report within the first five days of each month;

3)

The defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions
of the probation officer;

4)

The defendant shall support his or her dependents
and meet other family responsibilities;

5)

The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for
schooling, training, or other acceptable reasons;

6)

The defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;

85a
7)

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or any
paraphernalia related to any controlled substances,
except as prescribed by a physician;

8)

The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

The defendant shall not associate with any persons
engaged in criminal activity and shall not associate
with any person convicted of a felony, unless granted permission to do so by the probation officer;

10) The defendant shall permit a probation Officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband observed in plain view of the probation officer;
11) The defendant shall notify the probation officer
within seventy-two hours of being arrested or questioned by a law enforcement officer;
12) The defendant shall not enter into any agreement to
act as an informer or a special agent of a law enforcement agency without the permission of the
court; and
13) As directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant’s criminal record or personal history or characteristics and shall permit the
probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

86a
SPECIAL CONDITIONS OF SUPERVISION

1.

The defendant shall pay any restitution, fine and
special assessment that is imposed by this judgment
and that remains unpaid at the commencement of
the term of supervised release.

2.

The defendant shall participate in the Location
Monitoring Program as directed by the probation
officer for a period of six months, and be monitored
by location monitoring technology at the discretion
of the probation officer. Location monitoring shall
be utilized to verify her compliance with home detention while on the program. The defendant is restricted to her residence at all times except for employment, education, religious services, medical appointments, substance abuse or mental health treatment, attorney visits, court appearances, courtordered obligations or other activities pre-approved
by the probation officer. The defendant shall pay
all or part of the costs of the program based upon
her ability to pay as determined by the probation
officer.

3.

The defendant shall comply and cooperate with the
IRS in a good-faith effort to pay any outstanding tax
liability, to include any assessed penalty and interest.

4.

The defendant shall timely and accurately file all future income tax returns required by law during the
term of supervision, unless an extension of time is
granted by the IRS.

5.

The defendant shall provide the probation officer
with access to any financial information, including

87a
tax returns, and shall authorize the probation officer to conduct credit checks and obtain copies of
income tax returns.
6.

The defendant shall not open any new lines of credit
and/or incur new debt without the prior permission
of the probation officer.

7.

The defendant shall submit her person, residence,
office, vehicle, or any property under her control to
a search. Such a search shall be conducted by a
United States Probation Officer at a reasonable
time and in a reasonable manner, based upon reasonable suspicion of contraband or evidence of a violation of a condition of release. Failure to submit
to such a search may be grounds for revocation; the
defendant shall warn any residents that the premises may be subject to searches.

8.

The defendant shall cooperate in the collection of
DNA as directed by the probation officer.

9.

The defendant shall not own or possess any firearms, ammunition, destructive devices, or other
dangerous weapons.

88a
CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary
penalties under the schedule of payments.
Assessment
TOTALS

$600

Fine

$15,000

Restitution

$43,550

Đ

The determination of restitution is deferred until
. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such determination.

Đ

The defendant must make restitution (including
community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned payment, unless specified otherwise in the
priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i),
all nonfederal victims must be paid before the
United States is paid.
Name of
Payee

Evelyn
Das West
Caridad
Escarez

Total
Loss*

Restitution
Ordered

$6,995

$6,995

$6,995

$6,995

Priority or
Percentage

Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.
*

89a
Hermansita
Esteban
Fred
Esteban
Amelia
Guillermo
Erlinda
Sandalo

TOTALS

$6,995

$6,995

$7,995

$7,995

$7,145

$7,145

$7,425

$7,425

$43,550.00

$43,550.00

Đ

Restitution amount ordered pursuant to plea agreement $

Đ

The defendant must pay interest on restitution and a
fine of more than $2,500, unless the restitution or fine
is paid in full before the fifteenth day after the date
of the judgment, pursuant to 18 U.S.C. § 3612(f ).
All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).

90a

Đ

The court determined that the defendant does not
have the ability to pay interest and it is ordered that:

Đ

the interest requirement is waived for the
fine/restitution.

Đ

the interest requirement is waived for the
fine/restitution is modified as follows:

91a
SCHEDULE OF PAYMENTS

Having assessed the defendant’s ability to pay, payment
of the total criminal monetary penalties is due as follows*:
A

�

Lump sum payment of
mediately, balance due

Đ not later than

�
�

$44,150

due im-

, or

in accordance with Đ C, Đ D, or Đ E, and/or
F below); or

B

Đ

Payment to begin immediately (may be combined with Đ C, Đ D, or Đ F below); or

C

Đ

Payment in equal
(e.g., weekly,
monthly, quarterly) installments of
over
a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days after the date of
this judgment; or

D

Đ

Payment in equal
(e.g., weekly,
monthly, quarterly) installments of
over a
period of
(e.g. months or years), to commence
(e.g., 30 or 60 days) after release
from imprisonment to a term of supervision; or

E.

Đ

Payment during the term of supervised release
will commence within
(e.g., 30 or 60 days)
after release from imprisonment. The court

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and
(8) costs, including cost of prosecution and court costs.
*

92a
will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or
F

�

Special instructions regarding the payment of
criminal monetary penalties:
When incarcerated, payment of criminal monetary penalties are due during imprisonment at
the rate of not less than $25 per quarter and payment shall be through the Bureau of Prisons Inmate Financial Responsibility Program. Criminal monetary payments shall be made to the
Clerk of U.S. District Court, 450 Golden Gate
Ave., Box 36060, San Francisco, CA 94102 in
monthly payments of not less than $250 or at
least 10 percent of earnings, whichever is
greater, to commence no later than 60 days from
placement on supervision. Any established payment plan does not preclude enforcement efforts
by the US Attorney’s Office if the defendant has
the ability to pay more than the minimum due.

Unless the court has expressly ordered otherwise, if this
judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All
criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.

Đ

Joint and Several

93a
Case Number
Total
Joint
Corresponding
if
Defendant and
Amount and Several Payee,
appropriate
Co-Defendant
Amount
Names (including defendant
number)

Đ

The defendant shall pay the cost of prosecution.

Đ

The defendant shall pay the following court
cost(s):

Đ

The defendant shall forfeit the defendant’s interest
in the following property to the United States:

94a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION

No. CR 10-00414 RMW
UNITED STATES OF AMERICA, PLAINTIFF
v.
EVELYN SINENENG-SMITH, DEFENDANT
[Filed: July 14, 2010]
SUPERSEDING INDICTMENT

VIOLATIONS: 8 U.S.C. §§ 1324(a)(1)(A)(iv) &
(B)(i)—Encouraging and Inducing Illegal Immigration
for Private Financial Gain; 18 U.S.C. § 1341—Mail
Fraud; 26 U.S.C. § 7206(1)—Willfully Subscribing to a
False Tax Return; 18 U.S.C. § 1957—Engaging in Monetary Transactions in Property Derived from Specified
Unlawful Activity; 18 U.S.C. § 982(a)(6)(A)(ii)(II)—
Criminal Forfeiture of Facilitating Property; 18 U.S.C.
§ 981(a)(1)(C) and 28 U.S.C. § 2461(c)—Criminal Forfeiture of Mail Fraud Proceeds; 18 U.S.C. § 982(a)(1)—
Criminal Forfeiture of Money Laundering Proceeds
SAN JOSE VENUE
The Grand Jury charges:
At all times relevant to this indictment:

95a
1. From approximately 1990 until April 2008, Evelyn Sineneng-Smith (“Sineneng-Smith) owned and operated an immigration consultation business located at
1022 West Taylor Street in San Jose, California. She
also had “store front” offices in Beverly Hills, California,
La Jolla, California, Las Vegas, Nevada, and New York,
New York.
2. As an immigration consultant, Sineneng-Smith
counseled foreign nationals on applying for and obtaining employment-based visas in order for them to work
in the residential health care industry.
3. The United States Citizenship and Immigration
Services (“USCIS”) is a government agency within the
United States Department of Homeland Security that
oversees lawful immigration to the United States.
4. An “alien” is any person who is not a citizen or
national of the United States.
5. A “non-immigrant visa” provides an alien with a
temporary stay in the United States, and an “immigrant
visa” is issued for permanent residence in the United
States.
6. Under United States immigration law, an alien
can obtain an employment-based visa. An employer
must first file an application, known as a Form ETA-750,
with the United States Department of Labor
(“USDOL”) seeking to hire the alien. After USDOL
approves the form, the employer can apply on the alien’s
behalf to obtain a visa number and file an application
with USCIS called the I-140, Petition for Alien Worker.
The petition is signed under penalty of perjury. The
Department of State issues a limited number of visas an-

96a
nually, and if a visa for the employment-based visa category is available, an alien can file form I-485, Application to Register Permanent Residence or Adjust Status,
to became a lawful permanent resident of the United
States. This form is also signed under penalty of perjury.
7. In 1994, Congress enacted Section 245(i) of the
Immigration and Naturalization Act, known as the Legal Immigration Family Equity Act (“LIFE Act”),
which permitted certain aliens who were otherwise ineligible for adjustment of status to pay a penalty in order
to adjust their status without leaving the United States.
The LIFE Act temporarily extended the ability of certain aliens to adjust their status until April 30, 2001.
Therefore, in order for an alien to adjust his status under Section 245(i), he must be the beneficiary of a qualifying immigrant visa petition or application for labor
certification that was filed on or before April 30, 2001
and meet statutory and regulatory requirements. The
LIFE Act was previously limited to eligible aliens who
filed applications on or before January 14, 1998.
COUNTS ONE THROUGH THREE:
(8 U.S.C. § 1324(a)(1)(A)(iv) & (B)(i)—Encouraging
and Inducing Illegal Immigration for Private Financial Gain)
8. The factual allegations contained in Paragraphs
One through Seven are realleged and incorporated herein by reference as if set forth in full.
9. On or about on the dates set forth below, in the
Northern District of California, the defendant,
EVELYN SINENENG-SMITH,

97a
identified in the counts below, for the purpose of private
financial gain, did encourage and induce an alien to reside in the United States, knowing and in reckless disregard of the fact that such residence in the United
States was in violation of the law:
COUNT RETAINER
AGREEMENT

ONE
June 5, 2005
TWO
May 5, 2007
THREE June 18, 2007

ALIEN’S
ALIEN’S
INITIALS ADMISSION
NUMBER
(I-94)
O.G.
XXXXXX0310
A.G.
XXXXXX6809
H.E.
XXXXXX9809

All in violation of Title 8, United States Code, Section
1324(a)(1)(A)(iv) and (B)(i).
COUNTS FOUR THROUGH SIX:
(18 U.S.C. § 1341—Mail Fraud)
10. The factual allegations contained in Paragraphs
One through Nine are realleged and incorporated herein
by reference as if set forth in full.
11. It was part of the scheme and artifice to defraud
that Sineneng-Smith counseled foreign nationals, most
of whom entered the United States on visitor’s visas
from the Philippines, to apply for a Department of Labor Foreign Labor Certification in order to work in residential health care facilities.
12. It was part of the scheme and artifice to defraud
that Sineneng-Smith entered into contracts known as
“Retainer Agreement for Professional Services” with
foreign nationals and their employers to file, among

98a
other documents, applications for a Foreign Labor Certification with the DOL, and an I-40, Petition for Alien
Worker, with CIS. Sineneng-Smith charged approximately $5,900.00 for the filing of an application for a
Foreign Labor Certification with the DOL and $900.00
for the filing of the I-140 form with CIS.
13. It was part of the scheme and artifice to defraud
that Sineneng-Smith promoted DOL’s labor certification
program as a way for foreign nationals to obtain a permanent resident employment-based visa, all the while knowing
full well that foreign nationals who did not file petitions with
DOL or CIS before April 30, 2001 and met certain regulatory and statutory criteria, were not eligible to obtain an
employment-based visas. Sineneng-Smith knew that her
clients overstayed the amount of time that they were allowed to be in the United States and worked illegally at various health care facilities.
14. It was further part of the scheme and artifice to defraud that Sineneng-Smith gave her clients a document, entitled “Prayer for Your Mercy & Leniency” addressed to
state and federal government agencies. The document,
which contained Sineneng-Smith’s signature, stated that
the alien who possessed it was applying for a Department
of Labor Foreign Labor Certification, and requested the
government official exercise his discretion to allow the alien
to remain in the United States during the processing of application. The bottom of the letter listed an expiration
date.
15. On or about on the dates listed in the counts below,
in the Northern District of California and elsewhere, the
defendant,

99a
EVELYN SINENENG-SMITH,
having devised and intending to devise a scheme and artifice to defraud and obtain money by means of materially
false and fraudulent pretenses, representations, and promise, as described above, and for the purposes of executing
said scheme and artifice and attempting so to do, knowingly
deposited and caused to be deposited to be sent and delivered by the United States Postal Service the following documents:
COUNT DATE
FOUR

FIVE

DOCUMENT
December Letter
2, 2005
from
SinenengSmith
transmitting Department
of Labor
Application
for
Permanent
Employment Certification
for client
O.G.
July 12, Letter
2007
signed by
SinenengSmith accompanying Form

MAILED MAILED
FROM
TO
San Jose, Chicago, IL
CA

San Jose, Lincoln, NE
CA

100a

SIX

October
22, 2007

I-140, Immigrant
Petition for
Alien
Worker, on
behalf of
client A.G.
Letter to San Jose, Soquel, CA
client H.E. CA
from
SinenengSmith entitled “Prayer
for
Your
Mercy &
Leniency
on behalf
of H.E.”

All in violation of Title 18, United States Code, Section 1341.
COUNT SEVEN:
(26 U.S.C. § 7206(1)—Willfully Subscribing to a
False Tax Return)
16. On or about June 25, 2003, in the Northern District of California, the defendant,
EVELYN SINENENG-SMITH,
then a resident of San Jose, California, did willfully
make and subscribe a U.S. Individual Income Tax Return, Form 1040 (married filing separately) for the tax
year 2002, which was verified by a written declaration
that it was made under penalties of perjury, and was

101a
filed with the Internal Revenue Service, which said U.S.
Individual Income Tax Return she did not believe to be
true and correct as to every material matter in that the
said U.S. Individual Income Tax Return reported gross
receipts on Line 1 of Schedule C of the return to be
$749,020.00, whereas as she then and there well knew
and believed, the gross receipts for her immigration services for the 2002 tax year were greater than the amount
reported.
All in violation of Title 26, United States Code, Section 7206(1).
COUNT EIGHT:
(26 U.S.C. § 7206(1)—Willfully Subscribing to a
False Tax Return)
17. On or about October 15, 2004, in the Northern
District of California, the defendant,
EVELYN SINENENG-SMITH,
then a resident of San Jose, California, did willfully
make and subscribe a U.S. Individual Income Tax Return, Form 1040 (married filing separately) for the tax
year 2003, which was verified by a written declaration
that it was made under penalties of perjury, and was
filed with the Internal Revenue Service, which said U.S.
Individual Income Tax Return she did not believe to be
true and correct as to every material matter in that she
said U.S. Individual Income Tax Return reported gross
receipts on Line 1 of Schedule C of the return to be
$883,758.00, whereas as she then and there well knew
and believed, the gross receipts for her immigration services for the 2003 tax year were greater than the amount
reported.

102a
All in violation of Title 26, United States Code, Section 7206(1).
COUNTS NINE THROUGH TEN:
(18 U.S.C. § 1957—Engaging in Monetary Transactions in Property Derived from Specified Unlawful
Activity)
18. The factual allegations contained in Paragraphs
One through Seven and Counts one through Three are
realleged and incorporated herein by reference as if set
forth in full.
19. On or about on the dates listed in the counts below,
in the Northern District of California, the defendant,
EVELYN SINENENG-SMITH,
identified in the counts below, did knowingly engage and
attempt to engage in the following monetary transactions by, through or to a financial institution, affecting
interstate commerce, in criminally derived property of a
value greater than $10,000, such property having been
derived from a specified unlawful activity, that is, encouraging and inducing illegal immigration for purposes
of private financial gain, in violation of 8 U.S.C.
§§ 1324(a)(1)(A)(iv) and (B)(i);
COUNT DATE
FINANCIAL TRANSACTION
NINE
7/15/2005 Bank of America Check No.
5966, in the amount of
$37,500.00, made payable to
First American Title Company
TEN
7/11/2006 Bank of America Check No.
7149, in the amount of
$57,500.00 made payable to
First American Title Company

103a
All in violation of Title 18, United States Code, Section 1957.
CRIMINAL FORFEITURE ALLEGATION ONE:
(18 U.S.C. § 982(a)(6)(A)(ii)(II)—Criminal Forfeiture
of Facilitating Property)
20. The allegations contained in Paragraphs One
through Seven and Counts One through Three are
hereby realleged for the purpose of alleging forfeiture
pursuant to Title 18, United States Code, Section
982(a)(6)(A)(ii)(II).
21. Pursuant to Title 18, United States Code, Section 982(a)(6)(A)(ii)(II), upon conviction of an offense in
violation of Title 18, United States Code, Sections
1324(a)(1)(A)(iv) and (B)(i), the defendant, Evelyn
Sineneng-Smith, shall forfeit to the United States of
America any conveyance, including any vessel, vehicle,
or aircraft, used in the commission of the offense of
which the defendant is convicted, any property, real or
personal, that constitutes or is derived from or is traceable to the proceeds obtained directly or indirectly from
the commission of the offense of which the defendant is
convicted, and any property, real or personal, used to
facilitate or intended to be used to facilitate the commission of the offense of which the defendant is convicted.
The property to be forfeited includes, but is not limited
to, the following: 1022 Taylor Street, San Jose, California 95126.
22. If any of the property described above, as a result of any act or omission of the defendant:
a.

cannot be located upon the exercise of due diligence;

104a
b.

has been transferred or sold to, or deposited
with, a third party;

c.

has been placed beyond the jurisdiction of the
court;

d.

has been substantially diminished in value; or

e.

has been commingled with other property which
cannot be divided without difficulty,

the United States of America shall be entitled to forfeiture of substitute property pursuant to Title 21, United
States Code, Section 853(p), as incorporated by Title 18,
United States Code, Section 982(b)(1).
CRIMINAL FORFEITURE ALLEGATION TWO:
(18 U.S.C. 981(a)(1)(C) and 28 U.S.C. § 2461(c)—
Criminal Forfeiture of Mail Fraud Proceeds)
23. The allegations contained in Paragraphs One
through Seven and Counts Four through Six of this Indictment are hereby realleged and incorporated by reference for the purpose of alleging forfeitures pursuant
to Title 18, United States Code, Section 981(a)(1)(C) and
Title 28, United States Code, Section 2461(c).
24. Upon conviction of the offenses in violation of Title 18, United States Code, Section 1341, set forth in
Counts Four through Six of this Indictment, the defendant, Evelyn Sineneng-Smith, shall forfeit to the United
States of America, pursuant to Title 18, United States
Code, Section 981(a)(1)(C) and Title 28, United States
Code, Section 2461(c), any property, real or personal,
which constitutes or is derived from proceeds traceable
to the offenses, including:

105a
a. a sum of money equal to the total amount of
proceeds the defendant obtained or derived from, directly or indirectly, from the violation.
25. If any property, real or personal, involved in the
offense, and any property traceable to such property involved the offense, as a result of any act or omission of
the defendant:
a.

cannot be located upon the exercise of due diligence;

b.

has been transferred or sold to, or deposited
with, a third party;

c.

has been placed beyond the jurisdiction of the
court;

d.

has been substantially diminished in value; or

e.

has been commingled with other property which
cannot be divided without difficulty,

the United States of America shall be entitled to forfeiture of substitute property pursuant to Title 21, United
States Code, Section 853(p).
CRIMINAL FORFEITURE ALLEGATION THREE:
(18 U.S.C. § 982(a)(1)—Criminal Forfeiture of Money
Laundering Proceeds)
26. The allegations contained in Paragraphs One
through Seven and Counts Nine and Ten of this indictment are hereby realleged and incorporated by reference for the purpose of alleging forfeitures pursuant to
Title 18, United States Code, Section 982(a)(1).
27. Pursuant to Title 18, United States Code, Section 982(a)(1), upon conviction of an offense in violation

106a
of Title 18, United States Code, Section 1957, the defendant, Evelyn Sineneng-Smith, shall forfeit to the
United States of America any property, real or personal,
involved in such offense, and any property traceable to
such property.
28. If any property, real or personal, involved in the
offense, and any property traceable to such property involved the offense, as a result of any act or omission of
the defendant:
a.

cannot be located upon the exercise of due diligence;

b.

has been transferred or sold to, or deposited
with, a third party;

c.

has been placed beyond the jurisdiction of the
court;

d.

has been substantially diminished in value; or

e.

has been commingled with other property which
cannot be divided without difficulty,

the United States of America shall be entitled to forfeiture of substitute property pursuant to Title 21, United
States Code, Section 853(p), as incorporated by Title 18,
United States Code, Section 982(b)(1).
DATED:

7/14/10

A TRUE BILL.
/s/ [ILLEGIBLE]
FOREPERSON

107a
JOSEPH P. RUSSONIELLO
United States Attorney
/s/

MATTHEW A. PARRELLA
MATTHEW A. PARRELLA
Chief, CHIP Unit

(Approved as to form:

/s/

SUSAN KNIGHT
AUSA KNIGHT

108a

109a
ATTACHMENT TO PENALTY SHEET
CR 10-00414-RMW
U.S.
v.
EVELYN SINENENG-SMITH

Title 8, United
States Code, Section 1324(a)(1)(A)(iv) & (B)(i)—
Encouraging and Inducing Illegal Immigration for Private Financial Gain.
COUNTS ONE THROUGH THREE:

Penalties:

10 years imprisonment;
$250,000 fine;
3 years supervised release;
$100 special assessment.

COUNTS TWO THROUGH SIX:

Code, Section 1341—Mail Fraud
Penalties:

Title 18, United States

20 years imprisonment;
$250,000 fine;
3 years supervised release;
$100 special assessment.

Title 26, United States
Code, Section 7206(1)—Willfully Subscribing to a False
Tax Return.
COUNTS SEVEN AND EIGHT:

Penalties:

3 years imprisonment;
$100,000 fine;
1 year supervised release;
$100 special assessment and cost of
prosecution.

110a
Title 18, United States
Code, Section 1957—Engaging in Monetary Transactions in Property Derived from Specified Unlawful Activity.
COUNTS NINE AND TEN:

Penalties:

10 years imprisonment
and/or fine of twice the criminally
derived proceeds
3 years supervised release
$100 special assessment

111a
APPENDIX G

1.

U.S. Const. Amend. I provides:

Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition the Government for a redress of grievances.
2.

8 U.S.C. 1324 provides:

Bringing in and harboring certain aliens
(a) Criminal penalties

(1)(A) Any person who—
(i) knowing that a person is an alien, brings to
or attempts to bring to the United States in any manner whatsoever such person at a place other than a
designated port of entry or place other than as designated by the Commissioner, regardless of whether
such alien has received prior official authorization to
come to, enter, or reside in the United States and regardless of any future official action which may be
taken with respect to such alien;
(ii) knowing or in reckless disregard of the fact
that an alien has come to, entered, or remains in the
United States in violation of law, transports, or
moves or attempts to transport or move such alien
within the United States by means of transportation
or otherwise, in furtherance of such violation of law;

112a
(iii) knowing or in reckless disregard of the fact
that an alien has come to, entered, or remains in the
United States in violation of law, conceals, harbors,
or shields from detection, or attempts to conceal, harbor, or shield from detection, such alien in any place,
including any building or any means of transportation;
(iv) encourages or induces an alien to come to, enter, or reside in the United States, knowing or in
reckless disregard of the fact that such coming to, entry, or residence is or will be in violation of law; or
(v)(I) engages in any conspiracy to commit any of
the preceding acts, or
(II) aids or abets the commission of any of the
preceding acts,
shall be punished as provided in subparagraph (B).
(B) A person who violates subparagraph (A) shall,
for each alien in respect to whom such a violation
occurs—
(i) in the case of a violation of subparagraph
(A)(i) or (v)(I) or in the case of a violation of subparagraph (A)(ii), (iii), or (iv) in which the offense
was done for the purpose of commercial advantage
or private financial gain, be fined under title 18,
imprisoned not more than 10 years, or both;
(ii) in the case of a violation of subparagraph
(A)(ii), (iii), (iv), or (v)(II), be fined under title 18,
imprisoned not more than 5 years, or both;
(iii) in the case of a violation of subparagraph
(A)(i), (ii), (iii), (iv), or (v) during and in relation to
which the person causes serious bodily injury (as
defined in section 1365 of title 18) to, or places in

113a
jeopardy the life of, any person, be fined under title 18, imprisoned not more than 20 years, or both;
and
(iv) in the case of a violation of subparagraph
(A)(i), (ii), (iii), (iv), or (v) resulting in the death of
any person, be punished by death or imprisoned
for any term of years or for life, fined under title 18,
or both.
(C) It is not a violation of clauses 1 (ii) or (iii) of
subparagraph (A), or of clause (iv) of subparagraph
(A) except where a person encourages or induces an
alien to come to or enter the United States, for a religious denomination having a bona fide nonprofit, religious organization in the United States, or the
agents or officers of such denomination or organization, to encourage, invite, call, allow, or enable an alien who is present in the United States to perform
the vocation of a minister or missionary for the denomination or organization in the United States as a
volunteer who is not compensated as an employee,
notwithstanding the provision of room, board, travel,
medical assistance, and other basic living expenses,
provided the minister or missionary has been a member of the denomination for at least one year.
(2) Any person who, knowing or in reckless disregard of the fact that an alien has not received prior
official authorization to come to, enter, or reside in
the United States, brings to or attempts to bring to
the United States in any manner whatsoever, such alien, regardless of any official action which may later

1

So in original.

Probably should be “clause”.

114a
be taken with respect to such alien shall, for each alien in respect to whom a violation of this paragraph
occurs—
(A) be fined in accordance with title 18 or imprisoned not more than one year, or both; or
(B) in the case of—
(i) an offense committed with the intent or
with reason to believe that the alien unlawfully
brought into the United States will commit
an offense against the United States or any
State punishable by imprisonment for more
than 1 year,
(ii) an offense done for the purpose of commercial advantage or private financial gain, or
(iii) an offense in which the alien is not upon
arrival immediately brought and presented to
an appropriate immigration officer at a designated port of entry,
be fined under title 18 and shall be imprisoned, in
the case of a first or second violation of subparagraph (B)(iii), not more than 10 years, in the case
of a first or second violation of subparagraph (B)(i)
or (B)(ii), not less than 3 nor more than 10 years,
and for any other violation, not less than 5 nor
more than 15 years.
(3)(A) Any person who, during any 12-month period, knowingly hires for employment at least 10 individuals with actual knowledge that the individuals
are aliens described in subparagraph (B) shall be
fined under title 18 or imprisoned for not more than
5 years, or both.

115a
(B) An alien described in this subparagraph is
an alien who—
(i) is an unauthorized alien (as defined in section 1324a(h)(3) of this title), and
(ii) has been brought into the United States in
violation of this subsection.
(4) In the case of a person who has brought aliens into the United States in violation of this subsection, the sentence otherwise provided for may be
increased by up to 10 years if—
(A) the offense was part of an ongoing commercial organization or enterprise;
(B) aliens were transported in groups of 10 or
more; and
(C)(i) aliens were transported in a manner
that endangered their lives; or
(ii) the aliens presented a life-threatening
health risk to people in the United States.
(b) Seizure and forfeiture
(1) In general

Any conveyance, including any vessel, vehicle, or
aircraft, that has been or is being used in the commission of a violation of subsection (a) of this section, the
gross proceeds of such violation, and any property
traceable to such conveyance or proceeds, shall be
seized and subject to forfeiture.
(2) Applicable procedures

Seizures and forfeitures under this subsection
shall be governed by the provisions of chapter 46 of

116a
title 18 relating to civil forfeitures, including section
981(d) of such title, except that such duties as are imposed upon the Secretary of the Treasury under the
customs laws described in that section shall be performed by such officers, agents, and other persons as
may be designated for that purpose by the Attorney
General.
(3) Prima facie evidence in determinations of violations

In determining whether a violation of subsection
(a) of this section has occurred, any of the following
shall be prima facie evidence that an alien involved in
the alleged violation had not received prior official
authorization to come to, enter, or reside in the
United States or that such alien had come to, entered,
or remained in the United States in violation of law:
(A) Records of any judicial or administrative
proceeding in which that alien’s status was an issue and in which it was determined that the alien
had not received prior official authorization to
come to, enter, or reside in the United States or
that such alien had come to, entered, or remained
in the United States in violation of law.
(B) Official records of the Service or of the
Department of State showing that the alien had
not received prior official authorization to come to,
enter, or reside in the United States or that such
alien had come to, entered, or remained in the
United States in violation of law.
(C) Testimony, by an immigration officer having personal knowledge of the facts concerning
that alien’s status, that the alien had not received

117a
prior official authorization to come to, enter, or reside in the United States or that such alien had
come to, entered, or remained in the United States
in violation of law.
(c) Authority to arrest

No officer or person shall have authority to make any
arrests for a violation of any provision of this section except officers and employees of the Service designated by
the Attorney General, either individually or as a member of a class, and all other officers whose duty it is to
enforce criminal laws.
(d) Admissibility of videotaped witness testimony

Notwithstanding any provision of the Federal Rules
of Evidence, the videotaped (or otherwise audiovisually
preserved) deposition of a witness to a violation of subsection (a) of this section who has been deported or otherwise expelled from the United States, or is otherwise
unable to testify, may be admitted into evidence in an
action brought for that violation if the witness was available for cross examination and the deposition otherwise
complies with the Federal Rules of Evidence.
(e) Outreach program

The Secretary of Homeland Security, in consultation
with the Attorney General and the Secretary of State,
as appropriate, shall develop and implement an outreach
program to educate the public in the United States and
abroad about the penalties for bringing in and harboring
aliens in violation of this section.

